<html>
<title> - FIRST IN A SERIES: GREENING WASHINGTON AND THE NATIONAL CAPITAL REGION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 FIRST IN A SERIES: GREENING WASHINGTON AND THE NATIONAL CAPITAL REGION

=======================================================================

                               (110-117)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                   U.S. GOVERNMENT PRINTING OFFICE
41-988 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Epstein, Jim, Chairman, Board of Directors, D.C. Greenworks......    22
Hawkins, George, Director, District Department of the 
  Environment, District of Columbia..............................    22
Kelsch, Joan, Environmental Planner, Department of Environmental 
  Service, Arlington County......................................    22
Shovan, Robert, Apartment and Office Building Association of 
  Metropolitan Washington........................................    22
Siglin, Doug, Federal Affairs Director, Chesapeake Bay Foundation    22
Winstead, David L., Commissioner, Public Buildings Service, U.S. 
  General Services Administration................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    51
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    52

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Kelsch, Joan.....................................................    55
Hawkins, George..................................................    61
Shovan, Robert...................................................    69
Siglin, Douglas..................................................    84
Winstead, David L................................................    92
[GRAPHIC] [TIFF OMITTED] T1988.001

[GRAPHIC] [TIFF OMITTED] T1988.002

[GRAPHIC] [TIFF OMITTED] T1988.003

[GRAPHIC] [TIFF OMITTED] T1988.004



 FIRST IN A SERIES: GREENING WASHINGTON AND THE NATIONAL CAPITAL REGION

                              ----------                              


                        Thursday, April 17, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings, and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:13 a.m., in 
Room 2165, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chairwoman of the Subcommittee] presiding.
    Ms. Norton. Good morning to all, and I am happy to welcome 
all of you to today's hearing. I thank our panelists especially 
for coming to offer testimony in this first of several hearings 
the Subcommittee is conducting on climate change and energy 
issues. Because of our Subcommittee's jurisdiction over Federal 
leasing, construction, and economic development, we have a 
special obligation and a special opportunity to ensure that in 
carrying out these missions the Federal Government is an 
appropriate national environmental partner and leader, 
beginning with the National Capital Region, where the Federal 
Government is the preeminent leader in the region itself.
    Last year this Congress began to face the seriousness of 
the escalating financial and environmental costs of existing 
energy policy, and the Subcommittee itself has made a good 
start. The Subcommittee's provisions became part of the path-
breaking Energy Independence and Security Act of 2007, which 
the President signed as Public Law 110-140. The Subcommittee's 
provisions authorized high-efficiency light replacement; a 
photovoltaic provision; extension of life cycling calculations 
for government energy contracts out to 40 years, to have a 
greater beneficial effect on financing energy-efficient 
projects than previously was possible; and the creation of an 
Office of High-Performance Green Buildings that is required to 
coordinate with the Department of Energy, which is focusing on 
green issues in the private sector.
    In July, the Subcommittee held a hearing focused on low-
cost fixes for energy conservation, titled "Federal Leadership 
by Example on Energy Conservation: No Cost Quick and Easy Steps 
for Immediate Results." This hearing will examine the range of 
"green thinking" and the steps being taken, planned, or that 
should be taken, especially by the Federal Government as this 
region's leader, but also by local agencies, commercial 
developers, businesses and organizations to improve the 
environment and protect energy conservation and efficiency in 
existing buildings and new construction.
    We begin this series by looking at the National Capital 
Region because of the Federal Government's outsized presence 
here, particularly its huge leasing and construction footprint 
that is unmatched anywhere else in the Nation. The Federal 
Government is in a position to provide environmental leadership 
nationwide because of its consistent presence in the 
construction and leasing market, especially here, where Uncle 
Sam is the major influence on the region's daily life and can 
set the example for the public and private sectors throughout 
the United States.
    Green building activities generally cover products and 
practices that conserve energy and water, promote clean indoor 
air, protect natural resources, and reduce the impact of a 
building on a community. Examples include insulation, such as 
double-paned windows that reduce or conserve the heating loads 
of buildings, or positioning buildings in order to reduce the 
need for cooling or heating the building. Green buildings 
include reduced-flow toilets and low water-need plants for 
landscaping.
    Green building improves the indoor environment with the use 
of nontoxic chalks and adhesives, nonformaldehyde cabinets, and 
the use of filters. Green building protects natural resources 
by promoting the use of products with recycled content like 
carpet, tile, and wallboard, while promoting the use of rapidly 
renewable products like bamboo flooring and natural linoleum.
    Green building protects waterways like the Anacostia and 
the Chesapeake Bay by promoting practices that reduce the 
impact of structures on the environment, by mitigating the 
effects of storm water runoff, using green roofs, cisterns and 
permeable pavers, locating buildings close to mass transit, and 
including bike racks and storage units.
    This Subcommittee is especially interested in new frontiers 
in green thinking and action, in greening and conservation 
practices such as reusing energy and water, in various types of 
green roofs, especially for existing buildings, and the 
difference and value among the various LEED designations in 
energy saving technology, and in reducing practices that harm 
the environment in constructing and leasing near waterways.
    We also have a strong interest in comparisons of cost to 
benefit, and whether savings in energy and cost are actually 
resulting. For example, testimony was offered at our recent 
hearing on the Capitol complex that using photovoltaics here in 
the Rayburn Building would not be cost-effective.
    There are several buildings in the backyard of the United 
States Capitol that exemplify green building. The Washington 
Nationals' Stadium is the first LEED-certified sports stadium 
in the United States. The Nationals' Stadium achieved its LEED 
Silver rating in part because of its bike racks, its green 
roof, and its use of low-emitting materials during 
construction.
    Just to the east of the Nationals' Stadium, the new 
Department of Transportation building, authorized by this 
Committee, sits on the banks of the Anacostia River, one of the 
most polluted rivers in America. Federal structures are heavy 
contributors to the estimated 75 to 90 percent of the storm 
water runoff to the river. However, the DOT building has a 
68,000 square foot green roof, one of the largest green roofs 
on the East Coast.
    In addition to the DOT green roof, which limits storm water 
runoff into the Anacostia River, the DOT building has energy-
efficient boiler systems, heating, ventilation and air 
conditioning systems, and other building operations systems to 
maximize energy efficiency.
    The recent green attention to the Anacostia River needs to 
be repeated nationwide around the literally hundreds of 
polluted rivers. And this recent attention also needs to be 
much more the case in this region. Many Federal buildings, 
particularly in the District and Maryland, border or are close 
to waterways, giving Federal authorities particular 
responsibility for assisting clean water efforts here in 
managing real estate and in managing construction.
    The GSA has long engaged in energy conservation efforts 
well before climate change issues became prominent because the 
Agency has understood the cost implications. However, the 
Agency's efforts fall far short of what we now know will be 
required to meet what scientists tell us about the global risk 
we face and the energy crisis that is already upon us.
    Surely the Federal Government should be the first to step 
up in its leasing and construction. This hearing will help the 
Subcommittee to consider the benefit as well as the cost of any 
new requirements and new legislation.
    I am pleased now to hear remarks from our Ranking Member, 
Mr. Graves.
    Mr. Graves. Thank you, Madam Chair, for holding this 
hearing. And thank you to all our witnesses for being here. I 
in particular want to thank Public Buildings Commissioner David 
Winstead for his testimony today.
    GSA's Public Buildings Service manages approximately 95.6 
million rentable square feet of space in 190 federally owned 
buildings and 500 leased buildings in the National Capital 
Region. As the largest property owner and manager of office and 
warehouse space in the National Capital area, GSA has an 
opportunity to lead by example.
    Part of GSA's mission is to help its client agencies meet 
their environmental obligations. GSA practices energy 
conservation, it builds green, it provides recycled services to 
its client agencies. There are simple and cost-effective steps 
GSA can take to reduce energy consumption in Federal buildings. 
Even small reductions in the energy consumed in each building 
can have a large cumulative effect.
    For example, GSA operates buildings at costs that are 5 
percent lower than the private sector and pays 12 percent less 
for its utilities. These savings are the result of energy 
conversation solutions GSA has already implemented. Greening 
initiatives, like the ones I mentioned above, can benefit the 
environment and save taxpayers money, and make a lot of sense 
when they result in improved efficiency and real energy 
reductions, and are done in the most cost-effective way. 
However, when done without regard to the costs or real benefit 
to the environment, they can be completely illogical and a 
waste of taxpayers' money.
    Green roof projects can be a good example of both these 
categories. While installing a green roof on new construction 
makes all the sense in the world, installing that same roof on 
an existing building will require expensive modifications to 
support a heavier roof and generally doesn't make economic 
sense.
    A couple weeks ago we had a hearing on some of the 
initiatives occurring right here at the Capitol complex. And it 
was noted that the House spent around $80,000 last year on 
carbon credits. Meanwhile, that money didn't reduce our 
pollution one bit. Essentially, the House paid for somebody 
else's efficiency and didn't do a thing to use that money 
towards improving its efficiency. There was no real benefit 
whatsoever.
    Paying for carbon credits in my opinion doesn't do a thing 
to reduce pollution. All it is doing is paying for somebody 
else to be efficient and doesn't do anything to fix the 
problems that we have here. If we are going to spend taxpayers' 
money, we should be getting something for it. It seems that all 
we are doing is ridiculous things around here at the Capitol 
that don't take into account any of the costs or any improved 
efficiency. It is all done for the purposes of putting out a 
press release that sounds good and tries to make the House look 
good.
    I hope the rest of the Federal Government is not doing the 
same thing. If we are going to spend taxpayers' money for these 
projects, then we should see some real benefit to it and have 
it done in a cost-effective way.
    Again, I thank our witnesses for being here, and I look 
forward to the testimony. Thank you, Madam Chair.
    Ms. Norton. Well, thank you, Mr. Ranking Member, Mr. 
Graves. You will note that I am particularly interested in 
cost-effectiveness, as I said in my earlier remarks. But I 
think that the Speaker is doing exactly the right thing. We 
cannot sit here enacting laws, telling businesses they must 
spend money to in fact meet the challenge, and we do not do 
anything. We should not only be first; if there is any 
experimenting to be done we should do it, rather than to 
require others to do it.
    So, yes, we will not always be on the same page about what 
techniques to use, but I don't think there is any question now 
that we have a serious energy crisis in this country and none 
of us is doing enough.
    This Subcommittee hearing will help us to hear the plusses 
and minuses of what we are doing. I am very anxious to hear 
that from all of our witnesses.
    We will have two witnesses after Mr. Winstead. We will have 
witnesses across the board from the public and private sector.
    Mr. Winstead, before you begin your testimony, I do want to 
indicate to you that last time, we were put in the position of 
barely receiving your testimony and had indicated to you that 
that was unacceptable. And so I am going to put on the record 
the following remarks. That hearing was on the Old Post Office, 
and you indicated that the late testimony would not happen 
again. We don't have this hearing just to hear from you. We 
need to hear your testimony so that the staff can prepare 
questions and we can understand more what you are saying. 
Testimony on this green hearing arrived at 5:01 last night, 
Wednesday night, less than 24 hours prior to the hearing, and 
well past the 48-hour framework in the witness letter. Even 
that puts a real burden on the staff, with only 2 days to go; 
but, of course, with hardly any time to go, giving the staff, 
upon whom we depend certainly, at least partially, you just are 
essentially giving them no time.
    When the Old Post Office hearing of April 10th was 
originally scheduled, it was part of a two-part hearing. It was 
to be on the Old Post Office and, of course, on green 
initiatives. And the GSA was told by phone on both April 2nd 
and again on April 3rd to plan for both topics. And the hearing 
date then was told orally by April 10th. The Subcommittee staff 
is correct, even before their letter goes out to inform Agency 
staff orally, so that everyone will have the earliest notice. 
We could not get agreement on the greening part from the 
Minority because we needed it over the weekend, not because 
they were unwilling. So GSA was told that this part of the 
hearing would be today, April 17th. Remember, GSA already had 
started, apparently, or should have, green testimony in 
anticipating an April 10th hearing. The GSA always gives the 
answer that it is not us, it is them. And "them" is always the 
mean, old, slow, old, OMB. I am sure that that is the case some 
of the time.
    I very much recall when my good friend Mr. Shuster, my 
Republican friend, was Chair of this Committee. He was 
continually frustrated with timely submissions from GSA, and 
got so frustrated that at a hearing that he held, he would not 
accept late material at all, just simply asked questions.
    I don't want to be pushed to that. What I did, when staff 
suggested that that was one of my options, was to ask them to 
go to the law and the circulars. And here is what the law 
requires:
    Submissions. Before an Agency transmits proposed 
legislation on a report, including testimony outside the 
executive branch, it shall be required--it shall submit the 
proposed legislation or report or testimony to OMB for 
consideration and clearance. Report is defined in section 5(b) 
as views prepared by an Agency on a pending bill. GSA was 
specifically told that there was no pending bill. We don't know 
if there is going to be a bill. That is one of the reasons we 
want to hear this testimony, to see if any legislation is 
required at all.
    So, literally, this testimony by the circular wasn't even 
required to be submitted. And if in fact it is going to be 
submitted, then we are going to have to come to an agreement 
between you, us, and OMB about timely submission of testimony 
in order to avoid further steps. Mr. Winstead.
    Mr. Winstead. Madam Chair, I appreciate it. It is great to 
be before the Committee again. I thank both you and Congressman 
Graves for your leadership and support of GSA and our program.
    I also recognize your comments about the issue of the 
process of our testimony getting up here on time. As I said to 
you before the hearing, I will make sure that I meet with OMB 
and figure out how this clearance process can in fact be 
expedited. I know that we sent it up as soon as we got it back 
from OMB last evening at 5 p.m. But I do recognize both the 
circular you mentioned, section 5(b) requirements, and I have 
been told there were, because of the nature of the testimony 
today and their interest in this panel, there is obviously a 
lot of involvement with DOE and EPA and in working partnership 
with GSA and our programs both on the energy side and, 
obviously, sustainability side.
    It is my understanding, and I will verify this in following 
up this hearing and with the Committee, that took a little bit 
longer to try to get some feedback. So I will meet with them 
and I will make sure that we are in the future--as, obviously, 
we had some issues here in the last week or two--try to get it 
timely. I think we did receive notice. As you said, we knew 
this was coming, but the notice of the hearing came on April 
the 8th. But I am sensitive to your issues, and I will meet 
with OMB and try to see how we can expedite that.

TESTIMONY OF DAVID L. WINSTEAD, COMMISSIONER, PUBLIC BUILDINGS 
         SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Winstead. Madam Chair, I am very pleased to be here. I 
think as you mentioned, and Congressman Graves, GSA is in fact 
a leader by example, and we are very focused on some unusual 
new buildings and retrofitting, through major R&A as well as 
minor R&A, our existing inventory.
    I would also tell you, and I think it is helpful for you 
all to be aware of this, that the industry is very engaged in 
this. Just in the last 3 weeks there have been national 
conferences held by the Urban Land Institute, by the Real 
Estate Roundtable.
    I was sitting two nights ago at dinner with BOMA, the 
National Association of Industrial and Office Parks, ULI, and a 
lot of these industry groups that are facing and committed to 
greening and LEED certification and other energy-sustainable 
features in our buildings. This Committee in prior hearings has 
talked a lot about the consumption of energy, some 40 percent 
of energy consumed by the built environment. So we really do 
understand our obligation and leadership of this Committee and 
Congress in that regard. I do think it is a very positive 
message, however, in terms, as you mentioned, in terms of what 
we are doing.
    I also want to acknowledge that there are a number of 
people here today that I should give credit to in terms of our 
efforts; obviously, your focus on the National Capital Region. 
We have got Bart Bush, who is ARA for the National Capitol 
Region for PBS; Amy Hudson who is our Energy Coordinator in 
NCR; Michael Carter, who is our sustainability manager; Mike 
McGill, who you all know well, works with this Committee, is 
our communication legislative person at NCR. Also from my 
staff, Kevin Kampschroer, who is sitting right behind me, is 
our Acting Director of our Federal High-Performance Green 
Building Office at GSA that was formed subsequent to the Energy 
Act signed in December by the President. Also Pat Fee, which I 
know the Chairman and Ranking Minority Member would be very 
interested in knowing what we are doing in terms of managing 
our properties and getting greater efficiency and actions by 
our property managers both in their management of the buildings 
and equipment, but also leadership with our tenants so we can 
educate them on actions they can take. And Pat Fee, who leads 
up that nationally for GSA, is here today.
    You know, since 1985, Federal agencies have been very 
effective in reducing energy intensity in Federal buildings. 
And if you look back from 1985 to 2005--and it is increasingly 
enormously since then--but we had a 23 percent decline in 
energy consumption. We have also found that the same Federal 
inventory has cut carbon emissions, which obviously under this 
2007 act is requiring that we have essentially carbon-neutral 
buildings by 2030, which is a major goal, a very aggressive 
goal. But we are, because of the actions we have taken, we have 
saved about 3.3 million metric tons in terms of reducing that 
amount in terms of carbon emissions since 1990.
    GSA has also cut energy consumption overall by 30 percent 
since 1985 and carbon emissions by 281,000 metric tons. We are 
using green principles, as you know, in our building program, 
looking at efficient use of energy, looking at efficient water 
consumption and water equipment in buildings that gets less 
water use and higher efficiencies there, as well as using 
recycled materials.
    We are also promoting space that_as our mantra really_is 
delivering productive and efficient workspace to the Federal 
employee at the best value to the taxpayer. This Committee is 
one of our major stakeholders in that regard, and we very much 
appreciate your interest in this.
    As the first Federal Agency to join the U.S. Green Building 
Council, which is very engaged in this, I will, I told the 
Ranking Minority Member, Madam Chair, before you came in, that 
they have a huge demand on them now by the private sector as 
well as us in submission of green buildings. But since 2003 we 
have basically required all our new construction projects to 
use the Green Building Council Leadership in Energy and 
Environmental Design rating system as our design criteria, with 
the goal of obtaining silver designation.
    To date GSA has earned LEED ratings in 25 of our buildings, 
the most of any governmental organization at the State, Federal 
level. Using green to measure our success is a part of our 
daily operations in our capital program, which as you know, is, 
on average, about 1.2 billion a year of expenditure. In 
studying 19 of these buildings, of these LEED buildings, we 
have actually discovered the following: that these buildings do 
reduce indoor water use and have reduced indoor water use by 
over 38 percent as compared to the baseline year. And they also 
represent about 33 million kilowatt hours of green power 
purchases.
    As the market becomes increasingly aware of commitment to 
sustainability, GSA is also--because half of our inventory, as 
you well know, 175 million square feet, is delivered by the 
private sector, generic office space in most cases, but we do 
have some specialty buildings like the FBI field offices. But 
we are developing new green, in the leasing side, new green 
lease provisions, and updating existing provisions to become 
standard lease requirements in 2007, in this year--or last 
year, rather.
    We have realty professionals that are delivering LEED-
certified--we have 13 LEED buildings, 6 silver and 7 gold. Also 
our energy conservation efforts between 2003 and 2007 have 
achieved an 8.2 percent reduction in energy consumption. We are 
operating our buildings, as Ranking Minority Member Graves 
said, at 1.6 percent below comparative buildings in the private 
sector. And we pay about 10 percent less for utilities as a 
result of these energy efforts in our management of the 
buildings.
    Some of this reduction is directly attributable to the 
investments both that Congress and this Committee has approved 
in terms of major R&A renovation as well as stand-alone energy 
conversation projects over the last decade and a half.
     Here a considerable part of this reduction is a result of 
a concerted effort by GSA property managers working closely 
with our customers. Madam Chair, last year at the hearing you 
and the Committee were very interested in what we are doing to 
encourage energy saving activity in the management of buildings 
and also in terms of working with our tenants in both training 
them and providing leadership. And we have incorporated tenants 
in an energy conservation activity.
    And I would just like to highlight some of these just 
recent activities. I just sent a note out, or memo out, in 
February to the heads of all our properties around the country, 
highlighting the aspects of the new Energy Independence Act of 
2007, which was signed in December, and providing recommended 
course of actions. We have sent out newsletters to energy 
managers and building managers which highlight practical, 
easily implemented tips of energy conservation in buildings.
    And this month we have designated April, because of Earth 
Day, as the Energy Resource and Conservation Month at GSA. And 
we are really urging every region to sort of heighten their 
conservation efforts. We are also stressing best practices. And 
I have submitted to the Committee I believe, or could with this 
testimony, what several regions are doing in regards of 
perfecting communications with tenants to get their commitment 
and to get their action in turning off lights and other energy 
saving measures. In parallel with this sort of outward-facing 
initiatives we have designated energy managers for every 
building in the GSA inventory. We are operating and 
implementing standard performance criteria for property 
managers as a part of their performance plan. It is a critical 
element in our annual review of their performance.
    And the key techniques that we are focused on in some of 
the building managers, and the tenants, are clearly the issues 
of turning off perimeter lights. I remember one time, I think a 
year ago at a hearing, you commented about your concern, which 
is shared by us and by many, about lights on in Federal 
buildings and properties that are unnecessary. In fact, a lot 
of the cleaning, as you know, because of our contracts with 
NISH providers is during the day, but not using space heaters 
as a part of this, lighting, retrofitting, adjusting lighting 
control systems to match the tenant needs, to replace exterior 
and emergency lights with LED, which is not L-E-E-D but L-E-D, 
which is light emitting diode light fixtures, and also reducing 
gas engines with electric motors in our buildings.
    We are also meeting with our principal custodial contractor 
to reinforce the roles that they have. I have dealt and met 
with NISH, as an organization representing a lot of these 
contractors, to make sure that they are training and that our 
contractors are in fact doing energy conservation actions, 
cleaning with green building materials and cleaning, as well as 
revising specific standards in our contracts with our custodial 
providers to reinforce energy conservation activities.
    Specifically of interest here today, and that is why I 
brought in some of our crowd from NCR here, is that we have 
really made enormous strides. And I think it is great that it 
has been in our largest region, the National Capital Region, 
but we really have made major strides in incorporating green 
programs. In particular, a lot of that has been in our Federal 
inventory here at the NCR. In new construction of green 
buildings, NCR has earned three LEED Gold ratings, one in an 
owned product, an owned building, as well as two in leased 
projects. The Suitland Federal Center Maryland, is GSA-owned, 
and that is the new NOAA facility. That was the owned product. 
And then we have in Arlington, Virginia, we have the EPA 
buildings which were leased, which were called Potomac Yard One 
and Two.
    Another example of NCR's green building efforts is the 
development, as you know well, the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives, ATF, new headquarters down on New 
York Avenue next to the Metro in the NoMa area. This was once a 
brownfield site. It was previously used by the District 
Government, Public Works. And there was also an abandoned 
railroad trestle which required cleanup. NCR destroyed the 
trestle, remediated some 79,000 tons of contaminated soil, and 
now we have what I think will prove to be a landmark, probably 
award-winning architectural building designed by Moshe Safdie 
right next to a Metro station, which again is a sustainable 
design.
    The more we can drive Federal employee ridership on this 
Metro system, getting them out of automobiles, the better off 
we will be.
    I also mention suburban Maryland. We have the Food and Drug 
Administration at White Oak. We have some really remarkable 
features there and I would urge the Committee, if they have not 
been there, we will be happy to give you a tour. We have 
sustainable new construction features, including natural 
ventilation, solar heating, reduced water consumption, the use 
of recycled content in buildings. We also have a co-generation 
facility out there which provides reliable uninterrupted onsite 
electric generation for the facilities currently occupied on 
the campus. And this co-generation facility is one of 10 
projects in the NCR where, essentially under existing 
authority, we have been able to leverage private sector capital 
through energy saving performance contracts, as well as those 
with the utility energy saving contracts to finance this new 
co-generation facility.
    Another major project is NCR's Heating Operation and 
Transmission District, or HOTD as it is known, which provides 
steam and chilled water utility service to government and 
quasi-government customers. NCR completed the chilled water 
expansion co-generation project in December 2004. This was a 
$69 million project, and it installed eight chillers and co-
generation facilities in our central plant. And it also 
provides non-Federal_well, there are also non-direct Federal 
agency users like the Smithsonian that have their energy 
supplied by that plant with this new investment.
    Green roofs, as you mentioned, and the Committee is 
interested, and over the last 2 years there have been four NCR 
buildings that have come on line that feature extensive green 
roofs. And these planted roofs can really substantially reduce 
rainwater runoff during storms and provide significant 
insulation for the building.
    As you will hear from the Chesapeake Bay Foundation, the 
biggest challenge to the estuary system of the Potomac, 
Anacostia, and Chesapeake Bay is in fact runoff. So these roofs 
do contribute enormously to mitigating that. And those where we 
currently have these four projects are the Census Bureau 
headquarters in the Suitland Federal Center, which has an 
85,000 square foot green roof, the NOAA Satellite Operations 
Center at the Suitland Center, which has a green roof of 
110,000 square feet, and ATF on New York Avenue, I mentioned 
earlier, has a green roof of 55,000 square feet. And also as 
you mentioned, DOT, which has a green roof of 65,000 square 
feet.
    I would also note that landscaping and water conservation 
is important to this whole effort as well. And building green 
isn't just confined to the building itself. It extends to the 
landscape. And NCR has designed and maintained more than 100 
federally owned landscaped sites in the Washington metropolitan 
area. We have utilized a variety of landscape materials to 
minimize our reliance on turf, which requires, obviously, more 
irrigation, chemicals, energy and water consumed, and have 
chosen plant materials in these hundred landscape sites that 
can essentially tolerate drought to a greater extent than the 
turf, and also have a natural sort of pest resistance. So we 
are saving in terms of pest control.
    NCR also composts all of its yard waste, comprising about 
330 tons alone in 2007, using 100 percent organic poultry 
manure spread on these landscapes. I would note, Madam Chair, 
back in my earlier days in my law firm, I recall that was one 
of the biggest threats--you will hear later from Chesapeake 
Bay--is runoff from poultry waste on the Eastern Shore. And we 
are actually recycling that through our use in some of these 
landscapes.
    So we actually received the first Rain Leader Award from 
EPA in October of last year for innovative low-impact design 
projects in one of the EPA headquarter buildings in the Federal 
Triangle. GSA and EPA have developed this project, in 
partnership to convert an area that headquarters had previously 
used as a construction project staging area, into quite an 
attractive landscape garden.
    Some of the other issues in green operations, just to move 
this to a conclusion, extend beyond just new construction, 
green roofs and modernization, but also focus on buildings in 
our inventory, some 154 buildings where we are actually paying 
utility bills and institute changes in operating procedures to 
really save energy and obviously money spent on utility bills, 
as well as improving management. And we have done that through 
monitoring energy consumption on a monthly basis, conducting 
tenant awareness programs, performing building audits, and 
providing training.
    I would mention that in the past our energy audits had been 
administered on about 10 percent of our buildings on an annual 
basis. With the new law, that is going to have to go up to 
about 25 percent in those that are worst performers. So 
essentially the new act requires more audits sooner for the 
worst-performing buildings.
    Also advanced metering has helped us manage power 
consumption more strategically. I think at the last hearing 
that I was here, we talked about a surge issue and a high-heat 
temperature issue about two summers ago and how our prediction 
of energy and managing the energy supplies in that building 
were able to control consumption and save money.
    We also in 2007 reduced energy consumption in these 154 
buildings by 6.6 percent over the 2003 base. And we are 
procuring currently about 3 percent from renewable energy 
sources. Recycling is a part of this as well, as you mentioned. 
In all three branches of government, GSA is helping some 100 
Federal agencies in that regard. Our recycling contractors pick 
up paper, cardboard, cans, bottles from 120 buildings, housing 
more than 110,000 employees. And in 2007 we had 8,000 tons of 
materials collected and sold, generating an additional revenue 
of some $355,000.
    Diverting that amount of waste from landfills actually 
saved some $1.2 million in landfill disposal fees, avoided some 
25,000 cubic yards of landfill, saved 3 million gallons of oil, 
and also 56 million gallons of water.
    The new act, as I mentioned, does present some new 
challenges for the Federal Government and for GSA. For the 
first time, GSA is going to be required to reduce consumption 
of fossil fuel-generated energy in new buildings and major 
renovations. And for new design, our target is to be about 55 
percent below comparable private sector commercial buildings in 
2010.
    Much more difficult, quite frankly, is the goal of using 
100 percent nonfossil fuel-generated energy in our buildings by 
2030. And this is quite a challenge. And I would tell you that 
it is going to require GSA to meet with industry, to meet with 
BOMA and some of the other people testifying today, to be able 
to achieve that goal. It will not be easy.
    I would also mention that we continue to be a national 
leader in terms of purchase and use of renewable power. In 2006 
we had about 4.5 percent of our energy generated by renewable 
sources and through the use of energy certificates. If given 
the authority to expand--I think the last time I spoke to this 
Committee I did tell you that we were going to submit 
legislation, which we have, called the General Services 
Enhancement Act, that is currently before Congress and will 
allow us to extend authority for utility contracts from 10 to 
20 years. Without that kind of extension, we cannot provide the 
economies in renewable energy that we think we need nor benefit 
from relatively inexpensive energy that can be generated from 
some of these sources. The least cost-efficient is in fact wind 
power.
    In conclusion, I do hope that this testimony and our 
submissions highlight that I feel GSA is, in fact, in a 
leadership position in this regard. Obviously, our impact on 
the National Capital Region, both in our own building inventory 
as well as our leasing actions, is enormous. Twenty percent of 
the commercial real estate industry in Washington, D.C. is 
driven by our leasing actions.
    And so our requirement, for example, by 2010 to have Energy 
Star building systems or rated buildings is going to have an 
impact in a positive way, but we also hope with that we can 
have adequate competition as well.
    So Madam Chair, Ranking Minority Member Graves, I do want 
to thank you for this opportunity. And I would be happy--I know 
we submitted a lot to the Committee, I have a bunch of experts 
here behind me that have answers to absolutely every question, 
and I will try to answer any that you have at this point.
    Ms. Norton. They are certainly invited, when you think they 
are relevant, to answer questions.
    You have a reason to be proud of the very large roofs, DOT 
headquarters for example, which I mentioned and you mentioned 
both. Does the DOT have a LEED rating?
    Mr. Winstead. Madam Chair, DOT does not have a LEED rating, 
although it has a green roof, as you mentioned and I mentioned. 
And that is because when we actually signed that lease, it was 
actually before the requirement that I have currently given. So 
it is not LEED-certified, unfortunately.
    Ms. Norton. Does the ATF building have a LEED rating?
    Mr. Winstead. Yeah. When it is totally completed. We still 
have a bunch of punchlist items, but it is going to be 
submitted.
    Ms. Norton. So your testimony is both the--your testimony 
is that the ATF has a LEED rating?
    Mr. Winstead. It is going to be rated. Unfortunately, we 
have to complete--there are still some punchlist buildout 
issues there that, once completed, it will be in the LEED 
certification. DOT is not because, unfortunately, we contracted 
for that, and we have a--basically, you have to have one full 
year of operations to get that certification. So we are still 
in that process with the ATF building.
    Ms. Norton. So your testimony is you are seeking LEED 
ratings for both buildings?
    Mr. Winstead. We are seeking LEED rating for the ATF 
building. And one full year of operations is----
    Ms. Norton. You are not seeking a LEED rating for--the DOT 
building may be in better--may be better able to receive a LEED 
rating than the ATF building. Are you seeking a LEED rating for 
the DOT building?
    Mr. Winstead. We are not. When we contracted for that 
building and the requirements in that 1998 period, we did not 
have the LEED requirements in these current 2007 requirements 
when that lease----
    Ms. Norton. The testimony I don't understand, because the 
ATF building preceded----
    Mr. Winstead. That was the DOT building I was commenting 
on.
    Ms. Norton. I know. The ATF building preceded the DOT 
building.
    Mr. Winstead. The DOT building preceded the ATF building.
    Ms. Norton. The ATF building, that contract was put out 
many years ago. It took forever to get out. I certainly do not 
believe that the DOT building preceded the ATF building.
    Mr. Winstead. Madam Chair, I will get you all the 
information on DOT in terms of what the requirements are when 
we signed that contract with JBG and the ATF building so that 
you understand when those contracts were signed and commitments 
versus our requirements at that time, and also obviously what 
we are now trying to seek with the ATF building. I am being 
told by both Bart and Kevin that the DOT building will not 
receive LEED designation.
    Madam Chair, I would be happy to also do----
    Ms. Norton. I don't understand Federal policy on LEED 
designations. One of the things we are looking for is for the 
Federal Government to set an example. You know, State 
governments know that if the Federal Government builds a 
building, it tries to get it LEED-certified. Is there a cost to 
getting a building LEED-certified?
    Mr. Winstead. There are fees that are paid. And the biggest 
cost----
    Ms. Norton. Has OMB authorized those fees to be paid?
    Mr. Winstead. Yes, ma'am. On our new construction projects 
we are in fact----
    Ms. Norton. You have got two new construction projects, 
certainly the most recent ones here, which you are telling me 
are not LEED-certified, but OMB does in fact allow you to spend 
Agency funds to get LEED certifications. I don't understand why 
that did not occur for those buildings.
    Mr. Winstead. Well, I will get you background on both DOT 
in terms of when we signed the contracts with the contractor 
and the developer of that building, which is JBG, and what the 
requirements were for us at that point in terms of LEED-
certified, as I mentioned, what we are committed to now. And 
you know----
    Ms. Norton. Can a building be LEED-certified only when the 
contract is let, or can you ask for LEED certification once the 
building is open?
    Mr. Winstead. You can ask for LEED certification after a 
building has been built, but my understanding is the features 
at DOT, I think the SFO for DOT was in 1999, before--and we 
adopted LEEDs in 2003. We have added green features such as a 
green roof, but it is not enough, really, to certify, 
apparently, for everything.
    Ms. Norton. Have you sought LEED certification?
    Mr. Winstead. We have not for DOT.
    Ms. Norton. You do not believe that with all the energy 
efficiency in that building and the huge green roof that it 
would be LEED-certified at any level?
    Mr. Winstead. Madam Chair, I am being told that it would 
be--that we essentially would have had to redesign the 
building, after contract commitments were made in 1999, to have 
done enough in order to have gotten this building either 
certified or silver. So I am being told that, unfortunately, 
our requirements started--or we started in 2003 with LEED 
certification on lease construction, new construction. But 
these----
    Ms. Norton. I don't----
    Mr. Winstead. I will be happy to get you----
    Ms. Norton. I don't want to belabor this point. For the 
record, is it your policy to seek LEED certifications for all 
new construction now?
    Mr. Winstead. Yes, ma'am.
    Ms. Norton. Particularly since you say this should be done 
at the beginning on, does GSA incorporate green requirements 
and LEED requirements when it puts out a contract to construct?
    Mr. Winstead. Yes, we do. We have, both in terms of our 
facilities standards, P100, as well as our design and the 
ASHRAE equipment standards, we do have those requirements 
within our construction contracts to have sustainable green 
buildings. And we also look for, obviously, the energy 
efficiency in the building. We look at siting, design and 
construction compatibility as well.
    So all those factors are taken into consideration in 
getting a green building designation. We actually have 70 
projects in that pipeline now to have buildings certified. We 
have some 70 that are currently in the Green Building Council 
to get certified.
    Ms. Norton. Your testimony is that all projects now are 
going to be LEED- or Green Globes-certified?
    Mr. Winstead. LEED.
    Ms. Norton. LEED-certified?
    Mr. Winstead. Yes, ma'am.
    Ms. Norton. That is very important testimony. We very much 
appreciate that testimony. It sets the kind of example we think 
we will be unable to get lots of others to set if they don't 
see that we are willing to go through the process ourselves.
    You testified about an impressive decline in energy 
consumption, 23 percent. How was that achieved?
    Mr. Winstead. That was achieved basically in terms of both 
updating, through major R&A projects this Committee authorized, 
as well as minor, both with Energy Star equipment in remodeling 
projects, as well as looking at issues such as computer and 
task lighting in the interior of the building, compact 
fluorescent lamps, Energy Star products, looking at basically 
actions around in terms of energy glazed windows and heating 
and cooling systems that are ASHRAE standard and Energy Star-
rated.
    So that is what we are essentially doing and focusing on in 
terms of our modernization, is lighting, retrofitting control 
systems; and occupancy sensors are also other techniques and 
equipments that create the energy savings.
    Ms. Norton. Well, one thing that Congress continues to turn 
out is courthouses. We don't build lots of other things, but 
courthouses we build. Do courthouses get LEED ratings?
    Mr. Winstead. Yes. And we are--the most--I guess the one 
that is going to be completed and opened, it is the newest, is 
up in Springfield, Illinois--I mean Springfield, Massachusetts. 
And it is actually going to be LEED-certified.
    And again, as I mentioned earlier, you have to basically 
have a full year of operation before the Green Building Council 
will give that certification. But we are going to be getting 
certified. And what we have seen, which I think is very 
positive, is that the paybacks for some of these new lighting 
systems, HVAC, solar and the like, are becoming shorter. That 
has changed enormously. I think if you look back 5 years ago, 
some of the paybacks were 10, 12 years. Now we are looking at 
the payback in terms of these new energy systems being cut in 
half in 5 years.
    Ms. Norton. For what kinds of systems?
    Mr. Winstead. For lighting systems, for HVAC systems, for 
solar----
    Ms. Norton. And payback cut in half. This is very important 
for us to hear. Payback cut in half, meaning----
    Mr. Winstead. In terms of amount of years to recoup 
capital.
    Ms. Norton. So give us an example of the amount of years we 
are talking about.
    Mr. Winstead. If you look back 5 years ago, we were seeing 
payback periods of 10 to 12 years for some of these 
technologies. And now, for example, with control systems 
within, electronic control systems on the electric consumption 
buildings, we are seeing paybacks of about 3.8 years. So, under 
4 years.
    Ms. Norton. And in 3.8 years the system has paid for 
itself?
    Mr. Winstead. That is correct. You are recouping the cost 
that is the additional cost for this more energy-efficient 
lighting system in basically 4 years. We are looking at HVAC 
paybacks now between 6 and 8 years on average. And about 4 
years ago, the industry and GSA were looking more in the 
neighborhood of a decade long to recoup those asset 
investments.
    As you know, before we proceed on any of these 
prospectuses, we do cost estimates in terms of return based on 
revenue to the Federal Building Fund. And now these new systems 
are returning revenue, and we get a higher return because their 
payback and efficiency of them is shorter than it used to be. 
More people are getting involved in providing more energy-
efficient equipment, basically. And the average is about 6 
years in terms of all these products and lighting systems we 
are putting into buildings.
    Ms. Norton. This is really the good news from this hearing. 
The investment was substantial before. One might have expected 
the government to make it, but now it seems to me there is 
nothing that the government can do but make it.
    By the way, you have a relationship or are a member of the 
U.S. Green Building Council. Do you get any discount on the 
costs for LEED because of your relationship to U.S. Green 
Building Council?
    Mr. Winstead. We do not.
    Ms. Norton. Does anybody?
    Mr. Winstead. I do not think so. I do know, Madam Chair, 
that that organization, because I met with the head of it the 
other night, is expanding rapidly to deal with its demand. And 
one of the concerns I have, the Committee should be aware of, 
is their capacity to, you know, to handle these 70 projects 
that we alone have in the pipeline. But they are a nonprofit 
organization, and we are not getting a break. I suspect that--
--
    Ms. Norton. If you do enough LEED buildings, if you LEED 
all your buildings, as you now say you will, if ATF is a huge 
building, if DOT, another huge building, then it seems to me--
--
    Mr. Winstead. Madam Chair, I would be happy to look at this 
and to meet with them to see. You are absolutely correct, if we 
have got 70 projects----
    Ms. Norton. We are about to build the biggest construction 
project in the National Capitol Region since the Pentagon, and 
the biggest ever in this city. And it is not even just one 
building, it is the Department of Homeland Security. That is 
going to be five or six buildings.
    Mr. Winstead. Right.
    Ms. Norton. So it does seem to me that there is something 
to be said there.
    Mr. Winstead. I will meet with them and inquire as to their 
capacity to give us some equities, because we do have 70 in the 
pipeline.
    Ms. Norton. Again, in part, because we are trying to set 
examples, so we are trying to do it everywhere.
    Mr. Winstead. Right.
    Ms. Norton. And we aren't on PAYGO here, we don't want to 
meet that as an issue here, when what we are really trying to 
pay for is the energy efficiency.
    Mr. Winstead. Right.
    Ms. Norton. Perhaps 3 years ago, we opened an annex to a 
courthouse here, Bryant Annex to the Prettyman Courthouse. Is 
that LEED-certified?
    Mr. Winstead. Madam Chair, that was not. Again, I suspect--
but we will get this Committee also--DOT----
    Ms. Norton. That is like a whole new building. We can call 
it an annex if we want to, but it is the functional equivalent 
of an entirely new building.
    Mr. Winstead. You are correct. And I suspect, because it is 
not, I suspect that those contracts were signed before 2003.
    Ms. Norton. Let me ask you this. If one puts an annex on a 
building as part of a building, would that building be 
separately certified LEED? I don't know it is part of the same 
heating systems and the rest.
    Mr. Winstead. Yes, you can. We did it with the Metzenbaum 
Courthouse Annex. So you can in fact get LEED. And a lot of 
contributions, the energy systems, if the annex has the same 
HVAC system and utility systems within the older portion, 
upgrades in that would in fact perhaps get certified. As well 
as obviously with the Prettyman, you have different, obviously, 
wall systems, you have different insulation than you do in the 
older courthouse portion. But we did with Metzenbaum, we were 
able to get LEED certification for an annex addition to an 
existing older courthouse.
    Ms. Norton. The gold standard for a developer in this 
region is to get a GSA lease. To what extent are green or 
energy conservation requirements a part of those RFPs?
    Mr. Winstead. Well, we do have, on our leasing action we do 
have requirements for LEED--sorry, energy-rated system and a 
preference for LEED buildings. And one of the things that we 
are concerned about is in fact making sure that there is enough 
competition and supply in the market for LEED-certified 
buildings. And what we are seeing is more and more of the 
developers are in fact providing and having LEED buildings.
    JBG for one, that did the DOT building. Now all the 
buildings they are doing are LEED buildings in the District and 
surrounding area. We do give preference----
    Ms. Norton. You are saying we are seeking. Our resolutions 
say you have to give preference----
    Mr. Winstead. Right.
    Ms. Norton. --to energy-efficient buildings. But I have to 
say I am perplexed by you; are talking about supply of leasing 
in this region? You know well about NoMa and M Street; NoMa, 
where we had some difficulty getting the Federal Government to 
understand that they could get reduced leases there compared 
with more expensive parts of the city, where the whole part of 
the District of Columbia is being built up; not to mention M 
Street, which has vacant buildings, brand-new vacant buildings.
    You are talking about--this is the time, it seems to me, to 
press a deal precisely because it is your market. The 
competition is in your hands. Everybody wants to lease. We are 
in hard times. So I don't understand the competition notion in 
this market at this time.
    Mr. Winstead. I must--I do concur that I think what we are 
hearing from the industry recently, the ULI conference, which 
basically was a D.C. Development group, that they are all 
moving to offering up green buildings simply to be able to 
compete for GSA leases, as well as D.C. requirements and 
suburban Maryland.
    We just recently rewrote our sort of standard lease 
solicitation to incorporate many of the features that we have 
talked about, sustainable design and energy conservation. Some 
of these clauses are looking at and requiring daylight dimming 
controls, carpet replacement over the life of the lease. It 
must be recyclable materials. At least 50 percent of 
construction waste must be recycled as well as lessors are 
encouraged to purchase electricity from renewable sources if 
that is possible. So we are incorporating that in our contract, 
our lease clauses currently.
    Ms. Norton. Are you taking energy costs into effect in 
deciding the overall cost of the lease as we see energy costs 
go up?
    Mr. Winstead. Yes. Most of our leases are, in fact----
    Ms. Norton. You are paying them?
    Mr. Winstead. Yes, that is correct. And one of the issues 
in that regard is clearly that any energy improvements within 
our existing lease inventory to be more energy-efficient 
accrues some values to the landlord to the leaselord.
    Ms. Norton. I am very concerned about the language we have 
allowed in the resolution. You can have two--in fact, you will 
have two, three, four buildings or developers competing, and 
all of them have energy efficiency. Because they are competing 
today, some have upgraded, some--there are existing buildings 
on one hand, new buildings on the other. We have said 
preference. I wonder how you would calculate which of those 
competing, all of whom will tell you they are energy-efficient 
and will submit information to prove it--how you would rate 
green or energy efficiency as part of the RFP in deciding who 
ought to get that lease.
    Mr. Winstead. Well, in terms of the actual requirements, as 
I mentioned, under these new standard lease clauses are 
actually giving best value consideration in that SFO and 
procurement to these features so that anybody--out of three 
that are qualified, there may well be an acknowledgment of a 
higher standard or better energy efficiency that would have----
    Ms. Norton. You see what I am after. Because everybody 
wants your lease, everybody is going to try to meet high energy 
standards if you make them do so. Then when everybody is 
trying, then I don't know how you are going to decide. I know 
we do best value----
    Mr. Winstead. Right.
    Ms. Norton. --because there is no calculation, there is no 
way do this in any kind of strict mathematical fashion. But I 
am a little worried, when we know the worth of the lease to a 
developer, as to how you would, in effect, rate energy 
efficiency in deciding among the many very important factors. 
There are many very important factors. The Committee is well 
aware of that. And I don't mean to deprecate any of the others, 
but with energy going up in an escalating fashion, no hope of 
it really coming down in the way it once did, it does seem to 
me one has to look at energy calculations in a very special way 
and very different from whatever GSA may have been doing in the 
past.
    Mr. Winstead. That is right. It is--the documents, both in 
terms of the construction documents and specification of 
performance of equipment, we do have a very--it is sort of 
third-party verified. We do have a sense of these offerors in 
terms of what their design specs will, in fact, do in terms of 
energy efficiency, but, you know, we do look at total 
consumption of BTU per square foot, and we are using the ASHRAE 
90.1 model in that regard.
    So I would say, though, as you well know, from location to 
past performance, all these other factors are a part of that. 
This is clearly one that I think you are correct in saying the 
offerors are going to be much more attuned to try to be 
competitive in terms of what they are offering in energy 
performance and sustainable features in buildings. I mean, they 
realize that that is a factor that we, by the 2007 law, are 
committed to, and since 2003 are preferred LEED construct on 
these lease construct projects. So it will be coming.
    I think you are correct. I think given all the factors, it 
is going to probably be more important, but not--and it is not 
going to--it is going to be just be as important as it always 
has been in location and obviously the ability to deal with 
that agency's housing needs in that location. But we also----
    Ms. Norton. I would think the energy part of the RFP needs 
very special, expert inspection.
    Mr. Winstead. Yeah, we do have third-party verification.
    Ms. Norton. It needs it because you are dealing in some 
ways with an unknown. You are certainly dealing with a country 
that doesn't pay a lot of attention and doesn't look like it is 
about to do anything radical. And you are dealing with you 
paying it. It is as if we were talking about the Capitol. There 
is no difference.
    Mr. Winstead. Right.
    I will tell you I am concerned. In our own construction 
projects, I think it is a different situation, but I am 
concerned about these goals, about our commitment about the law 
and requiring it and its impact on competition. And we need 
to--I would commit to this Committee, I have talked to our 
leasing people here, NCR. I think we do need to do a much more 
aggressive outreach to the ULIs, the D.C. building industry, 
the northern Virginia NAIOP, groups like that in the NCR that 
are supplying our spaces under these leased actions and are 
building new buildings to meet our future space needs to make 
sure that they understand what we look at in terms of these 
specifications and performance, and that we make it very clear 
well in advance so that they can--if it is a question of 
bringing existing buildings up to par in energy rating, that 
they have enough time to do that to continue to be competitive, 
because the last thing we would want to is have requirements 
that diminish our competition, because obviously what we are at 
is best value.
    Ms. Norton. I think that is a very good point. The GSA and 
I have had forums before. It may be--I think this is such a 
matter apart from other items in RFP, it is such an unknown, it 
is so important, and your concern with competition is 
especially important to this Subcommittee. We think you are in 
the catbird seat, of course----
    Mr. Winstead. Yes. Madam Chair----
    Ms. Norton. --that I think it would be well worth it if we 
had a conference or a forum----
    Mr. Winstead. Be happy to do so.
    Ms. Norton. --on leases--focusing not only on energy, but 
especially energy, so that people are not caught. If we had a 
forum where you laid out what is far too technical to lay out 
in this hearing, the kinds of things, kinds of matters 
particularly involving energy that the government is faced 
with, then, in fact, we wouldn't be faced with putting RFPs 
out, people competing and they don't know if they are competing 
with somebody who really gets it, because they don't know what 
"getting it" means.
    Mr. Winstead. Right.
    Ms. Norton. So I would like to have discussions with you 
afterwards.
    Mr. Winstead. I would be happy to.
    Ms. Norton. How can we--beginning with this region, because 
it has so much Federal construction and leasing--but inviting 
people from other parts of the country to sit in as well to 
give some kind of notice about where the government is headed 
on requirements when it leases spaces so that people know what 
they are going to have to do. Of course, I am interested in 
this because I think it encourages them to upgrade their own 
energy efficiency and conservation.
    Now, you commission buildings; that is, you invite in third 
parties after a building is constructed, usually some kind of 
engineering company. Do you do that routinely?
    Mr. Winstead. Yes, we do. In the case of ATF, for example, 
that certification process cannot be totally completed until a 
full year of operation, which we are coming up on. But we have 
had commissioning. We are looking at those energy systems.
    Interestingly enough, on the lease side of it, which we 
were just talking about, we have mechanical engineering 
certified energy managers, some in house, but also some by 
contract, who review all these lease submittals we were just 
talking about. So, we do have a commissioning process after a 
building is opened, and we do have these both in-house-
certified energy reviews and some contractual companies that 
are doing that for us for the lease submissions that we are 
getting in terms of----
    Ms. Norton. Thank you very much. I just want to make sure 
that process is continuing.
    I asked the Ranking Member if he had any questions. He did 
not. Mr. Dent is here.
    Mr. Dent, do you have any questions or anything you would 
like to say?
    Mr. Dent. No.
    Ms. Norton. This is focused on the National Capital Region, 
this hearing is, but what we are talking about applies 
elsewhere. The difference between here and elsewhere is the 
huge footprint. If we do it here, it will have a leadership 
effect elsewhere as well. That is why I am particularly 
concerned about what is happening here.
    I am also--I would also like to know about what may be an 
even greater part of your budget; that is, the renovations that 
go on. You are in the process of a very expensive renovation 
that seems to go on forever of the Old Executive Office 
Building. Are there any green initiatives or conservation 
initiatives associated with that building in particular?
    Mr. Winstead. The EEOB project, as you know, is putting in 
basic new energy systems which will have Energy Star 
requirements based on the 2010 objectives on the lease side. It 
is also retrofitting fire and safety. It is also restoring 
historic properties, but we do--HVAC, but it is not LEED--and 
lighting as well, Madam Chair. So both in terms of the 
lighting, retrofitting and EEOB as well as the energy systems, 
they are Energy Star rated. I do not believe--I think that is 
it, Madam Chair.
    Ms. Norton. So is it your testimony that when you renovate 
a building, these are Energy Star rated, not simply are you 
looking for LEED in new construction.
    Mr. Winstead. On the renovation side we are focusing on 
Energy Star systems in these new buildings, but if their 
performance would allow for--if it is a substantial remodeling 
and renovation of the energy systems, then we could potentially 
be submitting that for LEEDs. But I don't know.
    Kevin, do we have many examples of that?
    Mr. Kampschroer. We have two.
    Mr. Winstead. We have two? What are they?
    Mr. Kampschroer. The Duncan Federal Building.
    Mr. Winstead. We do have two examples, the Duncan Building 
and--we will get back to the Committee.
    Ms. Norton. The Old Executive Office Building, is that an 
example?
    Ms. Norton. The Full Committee energy hearing, at that 
hearing GSA was questioned about energy-inefficient products 
being on a GSA schedule. That seems to be a real nonstarter. 
Are these inefficient products now removed from the GSA 
schedule?
    Mr. Winstead. FAS requirement is to sell only at Energy 
Star and FEMP-designated----
    Ms. Norton. Are they removed from the schedule?
    Mr. Winstead. I do believe FAS is in the process of 
ensuring that all schedule-offered green products materials, 
cleaning materials are green products. I do not--I have to get 
for the record----
    Ms. Norton. This is the second hearing when we brought this 
up. We need to know that there may be circumstances, and I 
forget that at the hearing there may have been some described, 
where the only product that could be used is an old systems 
product. What disturbed us was that this was on automatic 
pilot, thereby encouraging old system use, and we were at cross 
purposes with one another.
    I would like within 30 days, please submit the products on 
the schedule that are not energy-efficient and indicate why 
they are still on the schedule.
    Mr. Winstead. I will do so. I will be happy to do that.
    Ms. Norton. Thank you.
    Mr. Winstead. Because I know FAS has been working on it. I 
will just get you the current status of it.
    Ms. Norton. Our bill contained an Office of Federal High-
Performance Green Buildings. Is that office operational?
    Mr. Winstead. Madam Chair, we are setting it up. We have--
we are in the process of establishing a budget. Kevin 
Kampschroer, the reason I let him come up here is he is our 
Acting Director of that office. He was the head of our 
sustainability efforts.
    Ms. Norton. So it does have a Director?
    Mr. Winstead. Yes.
    Ms. Norton. Does it have any staff yet?
    Mr. Winstead. We do have staff that we have allocated to it 
in terms of some existing people within the central office of 
PBS that are supporting Kevin in his efforts. We do intend to 
go to public advertising for some of the obviously leadership 
positions in the new green building office. It is well under 
way now, and I would be happy to give you an organizational 
chart of how we intend to staff it out, and what the functions 
would be, and what both is in house and----
    Ms. Norton. Would you do that, and would you let us know 
when you intend to have a staff beyond the leader, the staff 
leader?
    Mr. Winstead. Sure. Because I know we are working on that 
with personnel now to staff out that office.
    Ms. Norton. As I indicated, Mr. Winstead, GSA didn't begin 
yesterday to work on energy conservation, except it never had 
anything like the challenge you have before you today, and 
there is no entity in the construction and leasing market even 
in the same ballgame as GSA. So some Committee is going to put 
a very special burden on GSA here. We are simply using this as 
the leading edge for the rest of the country because this is 
the place to see what works and what doesn't work because of 
the footprint of the Federal Government here in almost all 
aspects of our jurisdiction.
    We are very sympathetic. We tried with you--on the last 
page of your testimony, we tried with you to get public 
utilities serve as long-term public utility service contracts, 
and this is an example of how government doesn't work, because 
this is just stupid. We were not able to get periods longer 
than 10 years because of something called scoring. I don't even 
want to go into scoring, which is counterproductive, but it 
scores--which is supposed to be like it costs--the government 
money, except that what we are talking about is saving the 
government money. And with such a large user, the longer the 
contract, the better able we are to save money.
    There may be things that the government has to do to 
safeguard its own role in large contracts, energy contracts. We 
are simply classifying a way to correct this because that is 
where the big savings can occur. We are aware of that. We did 
make some progress here, but we are greatly in sympathy with 
your difficulty in meeting the goals as long as we are at cross 
purposes with you right here in the way in which we score.
    I thank you very much for this testimony.
    Mr. Winstead. Thank you, Madam Chair.
    Ms. Norton. I do want to ask you--I told staff I was 
concerned about an issue. There was a bipartisan letter sent in 
December 2007 requesting GSA--this is very important to us, to 
you, and to the Congress--to produce a report on the use of 412 
authority. We wanted this to review for opportunities for 
funding at St. Elizabeth's in particular. The report was due by 
the end of January. By agency request we extended the deadline 
to the end of February. It is now mid-April, and the report is 
still not here. You get almost weekly e-mails about where is 
the report. Where is the report, Mr. Winstead?
    Mr. Winstead. Madam Chair, the report--I have, in fact, 
approved the report several weeks ago, and I will make sure 
that it is up here today.
    Ms. Norton. Will you have the report back to me by the 
close of business today?
    Mr. Winstead. I will. Sorry.
    Ms. Norton. Thank you very much.
    We call the next panel, which are the others witnesses. 
They are George Hawkins, director of the D.C. Department of 
Environment; Joan Kelsch, environmental planner, Department of 
Environmental Services; Doug Siglin, Federal affairs director, 
Chesapeake Bay Foundation; Robert Shovan, Apartment and Office 
Building Association of Washington; Jim Epstein, Chair, board 
of directors, D.C. Greenworks.
    We will start with Mr. Hawkins, then Ms. Kelsch and then 
the others.

 TESTIMONY OF GEORGE HAWKINS, DIRECTOR, DISTRICT DEPARTMENT OF 
      THE ENVIRONMENT, DISTRICT OF COLUMBIA; JOAN KELSCH, 
  ENVIRONMENTAL PLANNER, DEPARTMENT OF ENVIRONMENTAL SERVICE, 
   ARLINGTON COUNTY; DOUG SIGLIN, FEDERAL AFFAIRS DIRECTOR, 
CHESAPEAKE BAY FOUNDATION; ROBERT SHOVAN, APARTMENT AND OFFICE 
   BUILDING ASSOCIATION OF METROPOLITAN WASHINGTON; AND JIM 
     EPSTEIN, CHAIRMAN, BOARD OF DIRECTORS, D.C. GREENWORKS

    Mr. Hawkins. Good morning, Congresswoman Norton, Ranking 
Member Graves, members of the House Subcommittee on Economic 
Development, Public Buildings and Emergency Management. My name 
is George Hawkins, and I am the director of the District 
Department of the Environment for Washington, D.C. I am very 
pleased to have this opportunity to discuss our involvement in 
efforts to green the National Capital Region.
    Madam Chair, I have also had the pleasure of working at 
your side in the District in the clean-up of the CSX spill 
along Anacostia, as well as the plans I know you spearheaded 
for the development at the St. Elizabeth site that you have 
mentioned in your conversation with GSA. So it has been a 
pleasure to do so.
    We believe that the development of the sustainability plan 
for the District or any city is one of the principal questions 
of the day. Any resident in the city uses less energy than 
their counterparts in the suburbs. They walk more, drive less, 
and the development covers less farms and habitat. Under almost 
any environmental basis, the footprint of a city dweller is 
smaller than others.
    The question is how to make that sustainable, because at 
the same time a city dweller is often left with residues of 
development and operations from the past on brownfields, there 
are lead paint problems, there's aging infrastructure, ground-
level ozone and less access to many natural resources. So there 
is a challenge on the urban side as well. So the imperative of 
this agenda is to really make our cities sustainable.
    We approached our testimony today to answer this question 
of how D.C. is seeking in an energy capacity to set a 
government in operation that is moving in this--in a green 
direction as a whole, so that energy is a piece of a part. We 
believe success on any of these, the whole would be bigger than 
each of the pieces.
    I will quickly summarize four areas. The first is how we 
are organizing government, the second is how the laws are set 
up, the third is some of the programs we are running, and the 
fourth is some of the regional efforts we are undertaking.
    First, as far as how we organized government, as you know, 
under Mayor Anthony Williams we elevated the importance of the 
environment by creation of the District Department of the 
Environment. Most cities do not have a stand-alone 
environmental department. They are frequently part of the 
Environmental Health Administration where many environmental 
issues at the city levels have started.
    Since our inception 2 years ago, we have integrated 
elements of the Department of Health, the energy office--our 
director of the energy office is here, Jack Warner--Department 
of Public Works, District Water and Sewer Authority. We now 
have a full-service environmental department in the District, 
and we have had great support on that score. This does State-
level work on regulations, county-level on slough review, as 
well as city-level work to look at permits and review sites and 
provide direct services to citizens.
    In combination with setting up this department, Mayor Fenty 
has established the Mayor's Green Team. We just started in 
December. We have representatives of 40 agencies, now 80 
people, meets once a month, and the idea is to coordinate all 
agencies going forth on green operations. This is a whole 
government effort, not just our department. I am pleased to say 
that we did an initial survey of how much green effort is going 
on in the District, and we tabulated 180 existing programs 
happening across agencies that had a green approach. We are 
delighted by that. So we are organizing our government to move 
forth.
    Secondly, on the laws, the extensive set of laws in the 
District to support the greening of this city. I will mention 
just a few. The first is probably the most relevant here, which 
is the Green Building Act of 2006. It requires, incentivizes 
the development of high-performing buildings, and is one of 
most foremost laws of its kind in the country. It requires LEED 
certification and Energy Star certification for all new 
construction for District buildings as of October 1st, 2007. 
October 1st, 2009, it is publicly financed buildings. October 
1st, 2011, it is all privately built buildings. So LEED 
Certification Silver will be the requirement of the day in the 
District.
    I am happy to say we have many of our friends here on this 
panel. There are more buildings in the pipeline for LEED 
certification in the District than any other State in the 
country here in the District. Really we have tremendous support 
from folks right here on the panel to work in this direction.
    We also have the Clean Cars Act of 2007, which will require 
low-emission vehicles standards, the same as used by 
California. We just negotiated a new MS4, Municipal Separate 
Storm Sewer permit, with U.S. EPA, which has some of the most 
stringent requirements for new development on stormwater in the 
United States. The Mayor just formed a Green-Collar Jobs 
Advisory Council. We absolutely want to have this rising degree 
of requirement connect into opportunities for our at-risk youth 
in this city as well as our businesses to build a whole new 
focus of our economy as well as the environment.
    Third, give you some sense of some of our specific programs 
as we are greening our District. I will mention our energy 
office. This is a full-service office that provides 
conservation efforts, including renewable energy outreach 
campaigns, small business assistance, appliance rebates, 
weatherization assistance and energy audits. Our low-income 
assistance of low-income residents has the highest penetration 
rates to low-income families of any district in the country. 
This office provides a full array of services both to 
businesses and individuals seeking to reduce their energy 
footprint.
    We also are expanding significantly our effort on 
stormwater, and stormwater and energy requirements are often 
very much the same and are consistent. We have expanded this 
new permit obligations, which, according to the U.S. EPA, is 
the most stringent in this country. The stormwater requirements 
in this permit for low-impact design, for reduced footprint for 
facilities are very much related to energy as well.
    A third comment I will make on programs is the Anacostia 
itself. I know how near and dear the Anacostia is to you. It is 
a jewel of the District. It is also one of the most polluted 
water bodies in the country. The Mayor has asked us for a 
specific plan with both long-, medium- and short-term actions 
to restore the Anacostia, which will be announced this spring. 
Elements of these plans are already being put in place. We have 
significant physical restoration projects going on in the Watts 
Branch and Pope Branch as well as clean-ups.
    A new set of development standards will be applied along 
the Anacostia that just went into effect this month. We have 
been happy to work with a tremendous array of nonprofits and 
community organizations in implementing these plans, and D.C. 
Greenworks I know is here today is one of our favorites.
    The last mention on programs is that we also have a 
significant compliance and enforcement effort. We believe that 
when you set a high bar for performance, your first step is to 
make sure that those who are regulated understand and realize 
what the obligations are. So we take as very important to make 
sure that our regulations and our requirements are transmitted 
and communicated to those who must comply.
    We will give every opportunity for folks to comply with 
requirements; however, we are building a strong enforcement 
program so that, if needed, particularly so that the businesses 
that do comply don't feel that there are others that are 
getting off, that we will enforce in the District and have 
initiated some of those actions so far.
    Finally I will mention some of the regional efforts. There 
have been many. We absolutely know that at the District we will 
not succeed in the region unless we work collaboratively with 
our Federal, our State and our county partners, one of which is 
right here to my right. We are active in a whole slew of 
partnerships. I will mention again just a few: The Anacostia 
Watershed Restoration Partnership, which is coordinated by COG. 
And Dana Minerva is here today vetting the Anacostia 
partnership. That partnership is D.C., State of Maryland, 
Prince George's and Montgomery Counties, U.S. EPA and the Army 
Corps of Engineers.
    We are also involved in the Interstate Commission for the 
Potomac River, and have signed the Chesapeake 2000 agreement to 
try to improve as well, although we are not reaching all of 
those goals as we had hoped, but still working very hard at it.
    Finally, the District takes very significantly the effort 
to reduce climate change. Cities may by the place where we see 
some of the consequence first. Most cities were located at the 
confluence of rivers or on waterways where rising sea level is 
likely to have the most significant first effect of climate 
change. Mayor Fenty has signed the Climate Protection 
Agreement. We have joined ICLEI's Cities for Climate Protection 
campaign. We have signed on the Climate Registry to calculate 
the city's carbon footprint, and we will be shortly announcing 
an effort to develop a climate change action strategy. We want 
to know the facts about carbon footprint as we take the next 
step into strategy itself.
    I am also happy to say there has been a combined effort of 
the Green Building Advisory Committee, something established 
under the Green Building Act, to green the building codes in a 
proposal that was unanimously supported by that advisory 
committee, which has representatives from a wide range of 
interested parties, that will turn the rules of the game, the 
building code rules in the District, green, we believe, this 
spring. So this full set of initiatives--and we have a slew of 
partnerships.
    I know I have run a few minutes too long.
    There is tremendous commitment on behalf of the District to 
make sure our government is organized to produce green, that we 
have a legal set of rules to establish green as the practice, 
that we work in all of our programs in partnership with our 
many friends and allies to implement and also expand in our 
region to do as well. I thank you for the opportunity to 
testify.
    Ms. Norton. Thank you, Mr. Hawkins.
    Ms. Kelsch.
    Ms. Kelsch. Good morning, Gentlewoman Norton, Ranking 
Member Graves. Thank you very much for having me here today. My 
name is Joan Kelsch. I am an environmental planner for 
Arlington County, Virginia, where I coordinate the county's 
green building initiatives. I am a LEED-accredited 
professional, and I also serve as the Chair of the 
Intergovernmental Green Building Group at the Washington 
Council of Governments.
    I appreciate the opportunity to present to you today 
Arlington's green building programs as well as the work being 
done to address green buildings regionally.
    Arlington is an urban community, and because of the 
continued interest in development in Arlington, the county is 
working to make its building stock as sustainable as possible. 
For the past 10 years, Arlington has used the U.S. Green 
Building Council's LEED Green Building Rating System to guide 
both public and private development in the county with the 
intent of reducing environmental impact in all new 
construction. Arlington originally focused our green building 
efforts on public facilities, and we now have three LEED 
Silver-certified public buildings in the county.
    Private, commercial and high-rise development in the county 
also must incorporate green building components. Many 
developers are now choosing to officially become LEED-certified 
because certifying their projects makes both environmental and 
economic sense for them.
    Arlington's Green Building density incentive program has 
encouraged more than a dozen projects to apply for LEED 
certification in the county.
    In 2007, Arlington launched its Climate Protection Program 
called Arlington's Initiative to Reduce Emissions, which is 
also known as Fresh AIRE. Existing buildings are responsible 
for about two-thirds of the county's carbon emissions, and as 
such, county staff has developed programs to encourage existing 
building owners to improve energy efficiency through building 
retrofits and operational changes using EPA's Energy Star 
benchmarking program.
    In addition to Arlington, several jurisdictions in the 
region have developed green building programs and are making 
continuous progress in the region. As Mr. Hawkins noted, D.C. 
has made some great strides including their Green Building Act. 
Montgomery County, Maryland, has also adopted green building 
legislation that addresses both public and private 
construction. In Fairfax, they have adopted policies that would 
green up growth centers such as Tysons Corner. And several 
jurisdictions in Maryland and Virginia require public 
facilities to achieve LEED certification so they are leading by 
example, and building codes are being addressed in several 
jurisdictions.
    Several communities in the D.C. area also offer incentives 
such as expedited permitting or reduced permit fees for 
buildings that go green.
    Through the Metropolitan Washington Council of Governments, 
local governments in the D.C. region have joined forces to 
share information and develop a common set of goals for local 
government green building programs.
    COG issued a report that examines the building issues 
facing our region and offers specific recommendations to local 
governments for developing regionally consistent green building 
programs for public and private development. Specifically, the 
report recommends that, one, local governments adopt LEED as 
the common green building rating system for the region, thus 
offering consistency across the region so all building 
professionals know to expect the same standards.
    Two, local governments should lead by example by designing 
and constructing public facilities to the LEED Silver standard.
    Three, jurisdictions should establish green building 
programs for private development that focus specifically on the 
environmental issues of particular importance to the D.C. 
region, including energy efficiency and on-site power 
generation, heat island mitigation, stormwater management and 
construction debris recycling.
    Finally local governments will coordinate in the region on 
education and outreach efforts so that we can optimize some of 
the innovation that is going on.
    Greening our Nation's building stock offers one of the 
greatest opportunities to protect the environment and enhance 
energy independence. Nationally buildings generate one-third of 
the Nation's carbon emissions, primarily through the use of 
electricity and natural gas. Despite rapid growth and the 
widespread acceptance of green building, only a small fraction 
of new home and commercial construction incorporates green 
components at this time. Additional leadership and action is 
needed to spread the word about sustainable building practices.
    The Federal Government can encourage green building 
practices through programs such as your Green the Capitol 
Initiative. Providing green building and energy efficiency tax 
credits would help encourage the private sector to adopt some 
of these green building components. Fully funding the Energy 
Efficiency and Construction Block Grant Program would support 
critical efforts at the local and State levels to further some 
of these goals.
    Additionally, the Federal Government can play an important 
role in green building success by supporting EPA's Energy Star 
benchmarking system.
    Finally, there is a critical need for additional research 
funding to develop and test new green building materials.
    Madam Chairwoman, Ranking Member Graves, Arlington County 
and the Council of Governments applaud your leadership in 
convening this hearing, and I thank you again for the 
opportunity to testify today. Those of us working in local 
government are very encouraged by the increased focus of 
attention on these particular issues, and we look forward to 
being your partners and moving forward. Thank you again.
    Ms. Norton. Thank you.
    Mr. Epstein.
    Mr. Epstein. Thank you, Madam Chair. My name is Jim 
Epstein. I am the chairman of D.C. Greenworks, a 501(c)(3) 
social and environmental enterprise organization whose focus is 
on every aspect of green roofs in the National Capital Region. 
We design and install, provide job training, provide technical 
assistance, educate the public, research the efficacy and 
benefit, and help create effective public policy regarding 
green roofs' roles in mitigating stormwater run-off.
    In North America, the green roof movement already has 
enthusiastic support in Chicago, Portland, Toronto, Vancouver 
and New York, and an extensive history in Europe. Washington, 
D.C., as you heard from Mr. Hawkins, has made a commitment to 
join these cities as a leader in the green roof movement.
    It is an honor and pleasure to have the opportunity to 
speak about the role green roofs have in greening Washington 
and the National Capital Region. In 2007, D.C. Greenworks 
worked with the District to install 12,000 square feet of green 
roofs in the Reeves Building and on One Judiciary Square, in 
addition to several commercial installations. So we completed 
$270,000 in green-roof installations and facilitated green-
collar jobs, job training for 16 individuals.
    There are many exciting projects in store for 2008 and into 
the future as we plan to double these numbers and administer a 
$200,000 grant awarded by the District of Columbia's Department 
of the Environment for green-roof installation targeted at 
creating public awareness and facilitating research.
    Green roofs offer many tangible benefits. I would like to 
highlight a few that would be of most interest to this 
Committee. Particularly during heavy rains, the combined sewer 
overflow system does not have the capacity to handle the 
influx, and much of the water that carries pollutants from our 
urban environment flow directly into the Potomac and Anacostia 
Rivers. Even basic green roofs hold about the first inch of 
rain and filter in cooler water that does run off.
    Green roofs act as additional insulation on the buildings; 
also cooling agents as they reduce heat absorption. 
Quantifiable research in the United States, however, is 
limited, and the results will vary based on climate, but 
preliminary results from studies taken at the headquarters of 
the American Society of Landscape Architects here in 
Washington, D.C., have shown a 15 to 20 percent reduction in 
heating and cooling costs since the installation of their green 
roof.
    A recent study performed in Germany showed that the cooling 
effect of green roofs increased photovoltaic efficiency 
significantly. Using green roofs and solar panels together 
could therefore decrease electricity demands and increase 
electricity production.
    According to the green build-out model developed by K.C. 
Trees and Linotech, which should be a central reading for this 
Committee, and highlights of which are included in my written 
testimony, 260 million square feet of the District currently 
covered by buildings. About 195 million square feet of those 
buildings, that is about 75 percent of the total number of 
buildings, are capable of accommodating a green roof. So it is 
a significant number of buildings in the District of Columbia 
that could hold a green roof. That means between 10- and 13 
million square feet of rooftop are replaced every single year 
in the District of Columbia alone. If 50 percent of the roof 
surface were replaced with green roofs, within 25 years, which 
is about the time that it takes to replace every single roof, 
stormwater discharges would be reduced by 882 million gallons 
annually.
    The most effective incentives for green roof installation 
so far in the District appear to be on-site stormwater 
management regulation for new construction, which, as you 
heard, is already implemented to a large degree; both mandates 
and market-driven incentives for achieving LEED certification, 
again well underway; and direct subsidy programs and grants. 
The District of Columbia Water and Sewer Authority has 
recommended and is currently researching fee basis--a basis for 
impervious service charge to start accounting for the costs in 
natural capital of stormwater run-off.
    Germany is the global leader in green roofing, with some 
municipal areas reporting 30 to 40 percent of all roofs to be 
green roofs. Their incentives include a mix of mandates, direct 
subsidies and tax credits. Other American cities are using a 
combination of these three approaches.
    Federal facilities make up approximately 8-1/2 million 
square feet of the impervious footprint in the District of 
Columbia. If that same 75 percent proportion were applied, that 
would mean that there would be 6.3 million square feet of 
green-roof-ready Federal buildings.
    There is still a tremendous need for research into 
measurable benefits of green roofs in the National Capital 
Region. The Federal Government is perfectly positioned to 
support such research with assets that have expansive green 
roofs and mirror-image wings, which could be extremely useful 
in comparative studies.
    More Federal subsidies for municipal projects are 
desperately needed. Funding for the National Fish and Wildlife 
Foundation, Chesapeake Bay Foundation and other providers of 
direct grants, and direct tax subsidies, especially for 
residents and other projects that do not fall under the 
stormwater and/or LEED mandates, could act as a catalyst to the 
growth of this movement in areas not covered by more widespread 
legislative acts which generally focus on new buildings.
    Additionally, providing green-collar job training on these 
installations through groups such as Earth Conservation Corps 
and AmeriCorps could provide job growth in categories cited by 
the Environmental Protection Agency as lacking the skilled 
workers needed for industry-growth and cost-reduction 
strategies.
    By managing rainfall where it lands through the use of 
green roofs, and on a significant scale, we can take the first 
and most important steps to cleaning up our rivers, 
transforming our cities and increasing the quality of life for 
citizens in the National Capital Region. Green roof 
installations in Federal buildings would demonstrate the 
Federal Government's commitment to greening the National 
Capital Region and pursuing energy security for the Nation as a 
whole.
    I thank you for your valuable time and welcome your 
questions.
    Ms. Norton. Thank you, Mr. Epstein.
    Mr. Shovan.
    Mr. Shovan. Thank you.
    Good morning, Chairperson Norton, Ranking Member Graves and 
members of the Subcommittee. Thank you for holding this 
important hearing on green buildings and inviting me to testify 
today. I am Robert Shovan, senior property manager and senior 
vice president of Transwestern. I am also a LEED-accredited 
professional. I am here today on behalf of the Building Owners 
and Managers Association, International, or BOMA International, 
and its Washington, D.C., affiliate, the Apartment and Office 
Building Association, or AOBA.
    Transwestern is a privately held national commercial real 
estate firm focused on creating value for our clients in each 
market that we serve. Transwestern is proud to say that we 
fully embrace our sustainability concepts and our property 
facility management services. We constantly strive to improve 
the quality of the buildings we manage for the good of our 
clients, our tenants, our environment and asset value.
    Over the last several years, Transwestern has found the 
shift to green or sustainable buildings is as good for business 
as it is for the environment. In our present economy 
construction costs continue to rise. Our operating costs, such 
as energy tax and payroll, continue to rise as well. Rent 
increases are not enough to compensate for these rising costs. 
We simply need to find other ways to lower the operating costs.
    Lowering energy consumption is an obvious way to start. But 
energy is only one component of green or high-performance 
buildings, and many other elements of a sustainably managed 
property are cost-neutral. For example, there is minimal cost 
to change policy, procedures or products on how to manage a 
building. It is also cost-neutral to fully implement recycling 
and to implement green cleaning programs that include training 
janitorial employees and switching to low-VOC-emitting cleaning 
products. Other components of green building operations include 
implementing environmentally friendly pest management programs 
and improving the building's air quality.
    Because we believe in the value to our tenants, to the 
environment and our clients, Transwestern has committed 51 
buildings totaling 17 million square feet to the U.S. Green 
Building Council's Leadership in Energy and Environmental 
Design Existing Building Portfolio Pilot. Transwestern's own 
corporate office in Chicago is LEED-certified.
    We are proud to note that we recently won the EPA Energy 
Star Sustained Excellence Award for the third consecutive year. 
Transwestern has been involved with Energy Star programs since 
1999. Here in Washington, Transwestern is not alone in our 
adoption of energy-efficient, sustainable management practices. 
Many real estate firms with properties in the region are 
participating in a broad and growing range of green initiatives 
independent, I may add, of statutory mandates to do so. We have 
provided an exhibit which contains a summary of a few of them.
    However despite the presence of numerous cranes across the 
skyline, Washington, D.C., is largely a built environment, and 
there is an important role for management teams of existing 
buildings to find ways to increase efficiency and 
sustainability in our portfolios.
    Property management professionals recognize the critical 
significance of energy conservation to contain costs and reduce 
environmental impacts, but it is also essential that elected 
officials and the public understand that realizing energy 
efficiency and sustainability gains in existing buildings 
presents an array of consideration and variables quite 
different from those involved in new construction.
    For instance, I may be very persuaded of the merits of a 
green roof for an existing building, but there may be 
structural factors that render it impractical, or it could be 
the current roof is only 4 years into its useful life, and thus 
simply too new to justify its reconstruction. Storm or 
graywater capture and reuse techniques are increasingly being 
designed into new buildings, but as desirable as they may be, 
adopting them into an existing structure will often be 
impossible.
    Similarly, the operating cost savings for more energy-
efficient elevator technology may be demonstrable, but what 
about the capital costs of replacing 16 very functional 
elevators in my building? Will the owners and tenants be 
persuaded of the value of doing so and enduring the associated 
disruption? Will the answer be different if it is coming from 
GSA, which leases roughly one-third of the privately owned 
office space in Washington?
    I must mention, too, for AOBA's housing providers that 
regulatory programs such as rent control and historic 
preservation can often constrain the ability to undertake 
proven energy-reduction measures like window replacements or 
individual utility metering.
    These are some of the realities involved in undertaking 
green initiatives in a largely built environment. There is a 
growing interest and commitment to doing so. Increasingly it is 
a matter of when, not if; and how, rather than why. To that end 
AOBA is undertaking a number of initiatives to assist its 
members. This month it launched a new Energy Managers 
Roundtable to share best practices. AOBA is building a Going 
Green Web site specifically focused on existing buildings, 
which will include case studies, helpful resources and a 
comprehensive outline of all green-related local laws, 
regulations and incentive programs. In September AOBA will hold 
a green conference that will address the unique issues 
associated with the greening of existing multifamily and 
commercial office buildings.
    AOBA is also one of the most recent BOMA affiliates to 
officially sign on to BOMA International's 7-Point Challenge, 
which has been voluntarily endorsed by many of the largest 
companies that own and operate buildings in the United States 
and is perhaps the best illustration nationally of the private 
sector's moving towards energy efficiency.
    In the fall of 2007, BOMA International called on its 
member companies to take a proactive and aggressive step to 
lower energy consumption across their portfolios by 30 percent 
by 2012. To date over 30 companies have accepted the challenge. 
These companies include well-known names as Transwestern, CB 
Richard Ellis, Cushman & Wakefield, USAA Real Estate and RREEF, 
to name a few.
    BOMA has also partnered with the Clinton Climate Institute 
to help bring many benefits of their Existing Building Retrofit 
Program to the private sector office buildings.
    BOMA International strongly believes that energy efficiency 
and carbon reduction efforts are well under way in this 
commercial office building industry. Voluntary efforts and 
programs such as the EPA Energy Star program and the Clinton 
Climate Initiative are bringing tools to our members to assist 
them in their efforts. We look to Congress to continue to 
encourage this type of action and refrain from implementing 
unneeded and costly mandates.
    We thank the Subcommittee for holding this important 
hearing and look forward to working with Congress and other 
public- and private-sector partners to achieve our mutual goal 
of market transformation. Thank you.
    Ms. Norton. Thank you very much, Mr. Shovan.
    Mr. Siglin.
    Mr. Siglin. Congresswoman, it is good to be back. Mr. 
Graves. I am Doug Siglin, I am the Federal affairs director for 
the Chesapeake Bay Foundation. I am going to try to set a 
context for much of the stuff you have heard.
    I will say before we do that, we have some bona fides in 
this business. We chose 10 years ago to build what became the 
world's first Platinum LEED green building at our headquarters 
in Annapolis. I understand now there are a handful of Platinum 
buildings in the world, but we were the very first, and it is 
still a tremendously amazing building on the shore of the 
Chesapeake Bay, and I would invite any of you to take a look if 
you are interested.
    Secondly, I want to say I personally made the decision to 
go raise money and donate the green roof to the Nationals 
stadium so that the hundreds of thousands of people or millions 
of people who will come to Nationals baseball games would have 
an opportunity to see what a green roof looks like in practice.
    The reason what you heard today is important is because the 
waterways of the National Capital Region and waterways of our 
entire region, in fact, continue to be very highly degraded. 
Ms. Norton, you know because of your long experience with this 
about the Anacostia. We call it one of the country's dirtiest 
rivers. It is officially listed as impaired for sediment, 
nutrients, bacteria, toxic chemicals and trash. This is the 
river that runs something like 2,000 yards from Capitol Hill, 
and every time one of the facilities flushes in this complex in 
a rainstorm, some part of it ends up in the Anacostia.
    In a bigger sense, we, as part of an ecological region, the 
Chesapeake Bay watershed, have a responsibility to make sure 
that the Chesapeake Bay is a clean and healthy, productive 
waterway for our children and grandchildren. These efforts you 
have heard about this morning, the green building, the 
stormwater management--that, in fact, is an engineer's term for 
urban run-off, agricultural run-off--are the solution. These 
are the kinds of things that will have to be done on a very, 
very wide scale if, in fact, we are going to quit reading the 
horror stories about the Chesapeake Bay. Stormwater run-off 
carrying a load of nitrogen is the principal pollutant to the 
Chesapeake Bay, and the way we address those things is to make 
sure that our built infrastructure filters out rather than 
funnels to those pollutants down to the Bay.
    If you read this morning's Post, there is yet another 
editorial about how bad a shape the bay is in. This one had to 
do with Governor O'Malley and Governor Kaine meeting this week 
to tell the watermen that they couldn't fish as many crabs 
anymore. The reason for that is because--in great part because 
there is too much nitrogen in the bay. The reason there is too 
much nitrogen in the bay is in great part because there is too 
much nitrogen in our lives that runs off into the Chesapeake 
Bay.
    The kind of stormwater management techniques that we have 
been hearing about this morning, including green roofs, 
including green buildings in general, including the efficient 
energy use, are, in fact, the techniques. If you take a look at 
the bay, you are going to see that now it has a huge dead zone, 
like the Gulf of Mexico. In fact, the dead zone in the Gulf of 
Mexico is larger than several States, several individual 
States. The area of the dead zone in the Gulf of Mexico is 
larger than some of our smaller States. The area of dead zone 
in the Chesapeake Bay is not quite that big, but it is very 
significant.
    A dead zone is a place where there is too little dissolved 
oxygen for fish and shellfish to live. The reason there is too 
little dissolved oxygen is because there is too much nitrogen, 
and we go back into the circle again.
    If we are going to approach solving those dead zones so we 
can get back the crabs, we can get back the oysters, we can get 
back all the resources that are in the Chesapeake Bay, these 
kinds of techniques are tremendously important.
    I am not going to go through a litany of all the things 
that have been done in the Capital region. I have it in my 
written statement, but you have heard it here today.
    I want to make two points in closing. Number one, we are 
seeing a tremendous amount of activity with buildings, and that 
is all to the good. We need to have the same kind of level of 
activity with our highways. The highways is the next big 
frontier. There are things going on now. We are at the very 
beginning stages of trying to figure out how to green up our 
highways. I am the chairman of the board of an organization 
called the Low Impact Development Center. The Low Impact 
Development Center is part of a national program called Green 
Highways. As you move to the surface transportation bill, 
Congresswoman, I think this has gotten to be a theme, that we 
are going to have to figure out how to green up highways.
    The last point I want to make, because I am just about out 
of time, is that I am a great baseball fan. It is one of the 
reasons I wanted to make sure that green roof was down at the 
Nationals stadium. Last night the Nationals scored two runs, 
but they lost the game. We are scoring a lot of runs in this 
region with all the things you have heard about this morning, 
but so far, as regards the Chesapeake Bay, we are still losing 
the game. These kinds of efforts have to be multiplied over and 
over and over again in the National Capital Region and 
throughout the entire Chesapeake Bay, and I would venture to 
say throughout the Nation. Anything that this Committee can do 
to make sure that these kinds of things are, in fact, 
replicated so that our waterways become clean again for our 
children and grandchildren would be highly appreciated. Thank 
you.
    Ms. Norton. Well, thank you Mr. Siglin.
    I want to thank all of you for your work. We have asked you 
to come, and I have asked that you sit at the same table 
instead of dividing people up, officials and private, because I 
would like to have a conversation. We are really learning.
    First let me say that we asked you to come because you 
represent the array of entities of various kinds who are trying 
to lead in this very, very challenging effort, and we think 
that your own efforts, and particularly the cross-talk we hope 
to elicit, could help the Subcommittee as we try to see what is 
the next step for the Big Kahuna here who can make a difference 
in almost every way and is going to try.
    Let us start with baseball, Mr. Siglin, you and Mr. 
Hawkins.
    Mr. Hawkins, do you know what the District has done first 
under Mayor Williams, now Mayor Fenty, is pretty impressive for 
a local jurisdiction starting up in this area. I must say, Mr. 
Hawkins, since we have State responsibilities, it is perfectly 
appropriate for us as a city to have a State agency, and other 
cities would not find that necessary. And I congratulate the 
District on moving this issue. They were pressed, frankly, in 
moving it to this level.
    Ms. Norton. We have heard testimony here that there is a 
Chesapeake Bay Foundation. Now, the reason we have a Chesapeake 
Bay Foundation, we are blessed with waterways. Well, the 
Anacostia flows into some things, and the Potomac flows into 
some things, and the tributary flows into some things, but they 
all end up in one of the great wonders of the United States.
    And yes, Mr. Siglin, it makes you want to cry. Of course, 
if you are a native Washingtonian you know about the crabs; 
there goes the one thing this city and region are known for. 
And colossal, colossal reduction in just the take, much less 
the quality of what has been there forever.
    Now, Mr. Siglin said, here is the Chesapeake Bay 
Foundation--a private organization, all right--went out to 
raise money not for what, its own work, but for what it knew 
would bring terrible harm to another entity on the banks of 
Anacostia and to get a green roof, for such roof as you need 
over a stadium.
    The reason for that, Mr. Hawkins, is that there was a huge 
fight before our current mayor became mayor as to whether or 
not there ought to be a stadium at all. And I suspect that the 
reason that there would have been no green roof, particularly 
since the District was paying for it, was that the council had 
put a cap on the amount of money that the city could spend, 
because the city objected strongly to having to build a 
baseball stadium in the first place.
    So my question here today is, is the stadium a factor, 
today in polluting the Anacostia? And what steps beyond the 
green roof have been taken by the District to keep it from 
being more of a factor in what many of us are trying do with 
the Anacostia?
    First, let me ask Mr. Siglin, who perhaps would know best. 
Would you say, with your green roof, is the stadium a 
significant factor, I should say, in continuing pollution of 
the Anacostia?
    Mr. Siglin. Congresswoman, the green roof is relatively 
insignificant. To tell you the truth, it is a demonstration 
roof. And the importance of the green roof at the stadium, for 
the most part, is the sign that goes along with it that tells 
the people walking by that it is, in fact, one of the 
techniques that can be used in an urban area to----
    Ms. Norton. So it is having--you wished it to have the kind 
of effect that in my questions to Mr. Winstead about whether or 
not the Department of Transportation or the Department of the 
ATF had a green roof and whether they are willing to spend the 
money to get a LEED roof--or excuse me, a LEED certification--
you are trying to have that same effect?
    Mr. Siglin. I was trying to achieve the goal of having the 
two million people that are going to come to the Nationals Park 
in a good season have some idea about that small green roof.
    Now I would----
    Ms. Norton. Do they know about that, by the way? Is there 
any way to know about that?
    Mr. Siglin. The people who come? Is that what you are 
asking?
    Ms. Norton. Yeah. How do they know?
    Mr. Siglin. There is a sign that I am told just went up 
yesterday before the Pope's visit that explains what it is, and 
it should be easily visible. I haven't seen it myself yet, but 
I am told that it is now up.
    But--I do want to say for the record, though, that the 
larger green roofs that Mr. Winstead was talking about do, in 
fact, have a very significant effect on water quality. The one 
at the Nationals' stadium, because the stadium is an open 
environment, turns out to be relatively small and not that 
significant. What is significant about the stadium, however, is 
that from the very beginning members of the environmental 
community here, including myself, sat down with the architects 
and the designers of the stadium--and there were lots of 
meetings, and some involved Mayor Williams--and there were 
dozens and dozens of meetings, and the stadium has built into 
it some extraordinary water management systems. In fact, it has 
four different water management systems for different reasons, 
different parts of the stadium.
    And I haven't seen any of the testing data since the 
stadium opened, but I can tell you that the stadium was 
designed in such a way that it is supposed to put clean water 
back in the Anacostia. And that is a great thing; that is a----
    Ms. Norton. That is a terrific thing. And let's get Mr. 
Hawkins to raise his right hand and tell us whether or not 
that, in fact, is occurring.
    Have all steps--given the fact that you, I, and now I am 
going to say every jurisdiction in the region have been working 
on Anacostia issues, has the District done all it can, have the 
owners of the stadium done all they can to keep further 
pollution in the Anacostia from resulting from the new stadium, 
which is built on the Anacostia?
    Mr. Hawkins. I would try to answer that question in three 
phases.
    First, I would agree there has been a tremendous 
partnership with members of the nonprofit and the private 
sectors to make the stadium the first LEED-certified stadium in 
the country, which is very impressive.
    The question of whether or not this stadium and its 
associated areas, like the parking lots, have no effect on the 
Anacostia, I don't think that is something that we would state 
or claim, particularly in the heaviest rainstorms. Many of the 
systems that we have in place in the very biggest of the rain 
events, there will still be runoff coming from this area.
    Ms. Norton. Wait a minute. Mr. Siglin said that the water, 
the impression I got from your testimony is that the water that 
does come from the stadium--the runoff, I understand, but let's 
put that aside a minute----
    Mr. Siglin. I think Mr. Hawkins' point is, surrounding the 
stadium there is a certain amount of surface parking. And the 
runoff from the surface parking outside the stadium will 
probably have an effect.
    Ms. Norton. Of course, that is controllable.
    Mr. Hawkins. Each of the parking lots we reviewed, and 
bioretention systems were built into the parking lots.
    Is there zero effect of the development of the stadium on 
the Anacostia? The answer would be "no." There will be some.
    Ms. Norton. I don't understand. I must say, since it is a 
new stadium, since it is LEED-certified, since Mr. Siglin's 
testimony is, they went to great lengths within the stadium, I 
don't understand if it is basically from parking areas.
    Why can't it be controlled and have virtually no effect 
on--I am talking about only the stadium now. There is all kinds 
of land that you don't control.
    Mr. Siglin. We should be able to do that, Congresswoman.
    I am not sure the systems are in place on the parking lots. 
Frankly, they were put in place the week before the stadium 
opened. I am not sure that----
    Ms. Norton. But they were planned long before. They knew 
there was going to be a parking lot, it would hold only X 
number of cars. And so I am sure with all the work that was 
done--and you said that they do catch runoff.
    So I am just trying to find out from this, just built in a 
climate-change environment, whether or not there is any from 
it. Because even if it doesn't--all kinds of places--so it will 
probably have an insignificant effect.
    I am just trying to find where the effects from the 
Anacostia--from the stadium would come from.
    Mr. Hawkins?
    Mr. Hawkins. What I would add to that is--here is how I 
look at it.
    I don't think there is any development--it is very hard to 
say there is zero consequence, no matter how well a development 
is done, to a nearby piece of ecology. The question in part is, 
what was there before.
    What is remarkable, there was development all along the 
Anacostia, some of which was parking lots and auto repair 
facilities that have been replaced by this development. You 
could--what is definitely true is that the current status of 
the Anacostia is better off with this new development and the 
new stadium than it was under the prior land use regime.
    Ms. Norton. Everybody shakes their head and says--I don't. 
A lot of that was vacant land. A lot of that, nothing was 
happening on it.
    I mean, Mr. Epstein's testimony was interesting--when you 
talked about something that I am going to have a provision for, 
try to get into the appropriations this period--and that is, if 
we don't start measuring this stuff, we will be rightly accused 
of not knowing what we are talking about. I don't know.
    And it seems that the Federal Government--what I am going 
to do is seek an appropriation provision that would have 
Federal money measure some of this. Because we are the biggest, 
we have the most to gain, I don't think you are the ones that 
should do it. I certainly don't think anybody else has the 
money to do it nor the incentive that we have to do it.
    But if everybody, when it builds says, my parking lots are 
good, my water is being recycled, I don't accept--absolutely 
don't, Mr. Siglin--that it is better than it was before. I 
really don't. There is construction that went on.
    I am a native Washingtonian. There is a notion of 
progressivism, that progress always happens if you are in 
America. Not true. We now know the climate is going to hell; we 
might be going right along with it.
    There was a bunch of land on which nothing much was 
happening. Private developers weren't developing on it; they 
were waiting to see if we were going to develop on it. My own 
project, the Southeast Federal Center, was a disgrace until we 
have gotten it now moving, with the first building going up. 
But, hey, nothing was happening.
    So I can't say that because the Southeast Federal Center is 
going up now, the Anacostia is better off than when nothing was 
happening. What I did do was get the Southeast Federal Center 
cleaned up before we proceeded.
    But I am making no assumptions. I think skepticism--this is 
the academic in me--is do everything we do, particularly 
everything that is new.
    The Ranking Member, you know, complains about--I think he 
was within his rights to bring doubts to the table on some of 
what we are doing here. So I don't accept that because there is 
a brand-new stadium, hey, the Anacostia has got to be better 
off than when nothing was happening and nothing was flowing 
into it. I think we have got to measure it.
    I am not asking this question for you; I am telling you--I 
hope my staff is listening--I am going to put a provision in to 
begin to measure not what the Nationals are doing.
    But, frankly, it has a lot to do with your testimony, Mr. 
Epstein, which I thought was very candid, very important. You 
talked about the fact that you cited what was measurable. And 
then you said that there were no true ways to measure what we 
are doing in green roofs and the like.
    And I pulled out your testimony. You spoke about a 15 to--
here it is: Effect of promoting green roofing generally adds 
$10 to $20 per square foot to the cost of a roof, which is not 
insubstantial. Is that the cost of a building or a home?
    Mr. Epstein. It is the energy reduction that comes from----
    Ms. Norton. Period?
    Mr. Epstein. Yes. That particular piece of information is 
in relation to the energy savings that the insulating factor of 
a green roof provides.
    Ms. Norton. So it adds $15 to $20 per square foot to the 
cost of the roof now?
    Mr. Epstein. Yes.
    Ms. Norton. What everybody wants to know is what we 
elicited in part from our questioning of Mr. Winstead: Okay, 
when do we get our money back? And he was talking about recoup 
times that were very impressive, 3 to 5 years, for example, 
which I think, given the life of a roof of about 25 years, as 
you indicate in your testimony, might be well worth it.
    Have these figures been documented?
    Mr. Epstein. They are documented, but they are not--the 
information is very regional. In other words, you know, studies 
that we get from Germany or from California are very hard to 
apply locally. So it is really important that we do these kinds 
of things locally. But the information is generally understood.
    Ms. Norton. You say in your testimony that Germany is 
reporting 30 to 40 percent. But I am looking for some 
indication that the return is substantial on green roofing; 
especially since we are a built city, as Mr. Shovan said, and 
in this city most of what we are going to do is encourage 
people to do what is already--only the Federal Government can 
build substantially, or a developer, one here and one there.
    Mr. Epstein. I can't say that there is a direct monetary--a 
significant monetary payback improvement at this point.
    Again, we would love to do some more studies on it.
    I think the important thing that Mr. Siglin points to is 
the extraordinary cost to the Chesapeake Bay. And that really 
is--really part of the factor that we have to consider as we 
look to----
    Ms. Norton. If you want to get practical about it, there 
goes the crab catch. Yeah, you say tremendous need for 
research, measurable effects in the National Capital Region, 
and that the Federal Government is perfectly positioned to do 
that research.
    Mr. Siglin, your response to that question?
    Mr. Siglin. Congresswoman, I just wanted to say this for 
the record: In 2003, the Chesapeake Bay Foundation created a 
Green Roof Incentive Grant Program in conjunction with District 
of Columbia WASA and the D.C. Department of the Environment; 
and in that program we offered private commercial entities 
about 20 percent of the additional cost of a green roof.
    So we offered that we would pay about 20 percent for their 
additional costs in putting a green roof on the building. We 
found great interest in that.
    And that incentive grant program has ended now; our program 
has ended. But we have been encouraging the District government 
and other governmental units to pick up that concept, because 
if a unit of government would pick up the concept of providing 
an incentive grant for about 20 percent of the incremental 
cost, the private building owner then picks up 80 percent of 
the cost, thereby achieving a public value, which is to stop or 
slow down the pollution that proceeds from that green roof for 
only $5--for 20 percent of the cost.
    So the point I am trying to make, Congresswoman, is if, in 
fact, we could take an incentive approach to this we could 
choose to achieve a public value for 20 cents on the dollar.
    Ms. Norton. And that is something that interests me in 
light of our jurisdiction over GSA.
    Mr. Shovan and--particularly, Mr. Shovan and Mr. Epstein; I 
think Mr. Epstein testified that some combination of 
photovoltaic and green roofs is sometimes more effective.
    I indicated in my testimony--or excuse me, in my opening 
statement--that they tried the notion, asked for a study. The 
whole study isn't done yet, but when we had our hearing on the 
new Capitol complex and on the Capitol itself, we were told 
that the Rayburn Building could not--was not appropriate for a 
photovoltaic.
    See, we don't know from here what kind of energy efficiency 
we are at, so we want what looks to us to have done some good. 
My question to you goes to the use of green roofs or 
photovoltaics in built environments such as we are dealing with 
here.
    Ms. Kelsch, your jurisdiction is like the District--we were 
part of Arlington--one of the oldest in the country as well, 
many built, many already-built entities. Is there the capacity 
to work with already-built buildings so that there would be an 
incentive for the industry or for somebody--whoever is becoming 
expert in this--to, in fact, put a green roof on; and for the 
organization or the government agency to feel that it was worth 
while to go to this technology or to go to greening of this 
kind for already-built entities?
    Ms. Kelsch. I will take a shot at that.
    Ms. Norton. Should this be done? Should we be encouraging, 
are we encouraging, because we believe that there is enough 
savings in energy and enough savings in costs; and it comes 
back quickly enough to encourage green roofs of various kinds, 
given the age of some of these buildings?
    Some are huge, some are small, some were never meant--just 
let me elaborate on what my thinking is--some were never meant 
to hold hardly anything on them. They age. And we are not 
talking about what Mr. Shovan had in his testimony.
    There may be practical reasons, too old, to new, whatever. 
I am talking about a built building, not too old, not too new, 
the owner doesn't know what to do.
    Can we say at this moment in time that this is what people 
who own buildings or structures that have already been built 
should explore as a way to deal with runoff and to conserve 
energy?
    Ms. Kelsch. I would say that green roofs are definitely a 
technology that are worth exploring. I think at this point they 
are a little bit more--they are more expensive than just 
replacing your roof. So if the building is structurally sound 
and can support a green roof, if there were incentives for 
building owners to put a green roof--to replace an existing 
roof that needed to be replaced with a green roof, I think that 
would move the market forward.
    Ms. Norton. Well, Ms. Kelsch, you testified about an 
impressive array of incentives.
    Mr. Hawkins testified that if you build here, you have got 
to build to LEED, didn't you?
    Mr. Hawkins. For the private sector, the LEED requirement 
will be in 2011. For District-owned buildings, the current 
requirement is that any new building must be LEED-certified.
    Ms. Norton. That is a District-owned building. I thought 
you indicated there would be requirements for private----
    Mr. Hawkins. Absolutely, October 1, 2011, all private 
sector buildings need to be LEED-certified.
    Ms. Norton. Do you have incentives the way Arlington does 
in order to encourage this? How has the industry, Mr. Shovan, 
received this mandate? First, are there incentives?
    Mr. Hawkins. There are. Yes, there are incentives.
    And one of the questions on what can be done with roofs in 
particular is, a green roof, in some respects, is one of the 
best solutions and one of the ones that needs research and 
analysis for a broader financial rollout.
    Dollar for dollar, the best thing you can do for a roof in 
a built environment is to replace the old black tar roofs with 
a white cover. It reflects the heat rather than absorbing it. 
And that is by far, on an energy basis, per dollar, the best 
investment.
    Ms. Norton. So could you in Arlington or the District of 
Columbia--I hesitate to ask the Federal Government--replace a 
black tar roof with a black tar roof today? Do you have 
regulations that, say if you are going to use tar, it has got 
to be white at least?
    Mr. Hawkins. I do not believe in the District that that 
regulation has--that there is a regulation that requires that 
change.
    Ms. Norton. The other change requirement costs a lot of 
money. This looks like it is a little less expensive.
    Mr. Hawkins. Correct.
    There is an incentive program, not big enough, that we 
worked with D.C. Greenworks to provide that came from the 
Department of the Environment. We have in the 2009 budget over 
a million dollars of incentives for low-impact design for built 
environment.
    I agree that the single biggest challenge is the existing 
building stock of any city. And we can get new buildings to 
reach very high standards--for many, not all, it is still a 
challenge--to be built into the cost structure. The existing 
stock, which is most of what we have, is where a lot of the 
action is. And there are a lot of the economics that still need 
to be proven.
    I think it is exactly the right place for government to 
step forward and provide financial incentives for the range of 
roof materials that can be experimented with to improve the 
technology.
    Ms. Norton. You are on the receiving end of regulation at 
the District. I am very impressed with what the District is 
doing. Let's see how impressed you are with it.
    Is the industry going to be able to get in line by the 
dates Mr. Hawkins has indicated?
    Mr. Shovan. It was in 2011?
    Ms. Norton. 2011.
    Mr. Shovan. 2011 for new buildings. It is new construction.
    I don't know. I would have to work with my AOBA folks and 
get back to you.
    Ms. Norton. Is there any incentive today given--let me ask 
the question another way.
    Is there any incentive whatsoever, given the mounting costs 
of energy--probably the worst part of any single cost that a 
developer would receive--to do anything but what Arlington and 
the District are trying to, in fact, get to happen? Is there 
any reason not to do so, given the fact that you have got to 
pay, for the most part, for the energy yourselves?
    Mr. Shovan. I think that there are a lot of market--real 
estate market factors are that are moving building owners 
towards green certifications like LEED-EB. So it is more that 
tenants are starting--larger tenants are starting to ask for 
that.
    Ms. Norton. What about commercial buildings?
    Mr. Shovan. That is what I mean.
    So, for a tenant who is going to be at the end of their 
lease and move, and they have two buildings that are 
comparable, if one is green, we have been seeing that, you 
know, they may go in that direction as opposed to the building 
that doesn't have some sort of green certification.
    Ms. Norton. So the development community must have 
testified. Or was this before this administration came into----
    Mr. Hawkins. The Green Building Act was passed before the 
Fenty administration, although it was in the Council when he 
was part of the Council.
    Our sense is, there are always some developers who are not 
on board, but that the private sector is streaking ahead on 
this. And in the District most major commercial products that 
you see with the cranes around the city are being built to 
LEED-certified standards.
    And the private sector has shown tremendous leadership. We 
have been impressed by it.
    Ms. Norton. I am going to try to make the Federal leasing 
process part of this incentive, because we are the ones that 
are the major lessors in the region. The District doesn't lease 
or build much, for that matter, it is still a government agency 
for all that that implies. And yet it has got this forward-
looking code and--including private developers in it, which I 
see in league with what we are trying to do with lessors.
    If the District says, you want to build new--of course, 
that's new; then you have to be LEED--and we say, LEED. And 
then they come together. And you are going to get other 
jurisdictions meeting it, because you meet it at both ends. You 
meet it from the Federal Government, you meet it from local 
government.
    Mr. Shovan. It also becomes competition. Because if, as a 
property owner, you know that there are new buildings that are 
green buildings that are being delivered and your present 
portfolio doesn't have any green certification, that is going 
to move you towards that so you can compete and attract those 
tenants that are becoming available.
    Ms. Norton. Now, Ms. Kelsch, Mr. Epstein talks about 
subsidies and tax credits. Let me make sure I understand.
    Is there any tax credit in these jurisdictions, in these 
two jurisdictions for this?
    Ms. Kelsch. Not in Arlington.
    Ms. Norton. What are the incentives? Apart from the 
mandates, what are the incentives?
    Ms. Kelsch. Arlington offers private developers a little 
extra density, so they can build a slightly bigger building if 
they meet LEED, green building standards. So they have a larger 
building they can lease out for the 40-, 50-year life of that 
building, which is--it is actually a great deal for developers.
    And we have had about a dozen projects that have taken us 
up on that. Two of them are finished and 10 are in the 
pipeline.
    Ms. Norton. How about you, Mr. Hawkins?
    Mr. Hawkins. The significant incentive under the Green 
Building Act is faster permits. We offer sort of the green 
permitting notion that if you do the right thing, you will get 
faster decisions.
    Ms. Norton. That happens to be worth something in this 
town.
    Mr. Hawkins. That would be true.
    One other thing I want to mention, I think is ripe: The 
green team we formed in the District, one of our first 
committees we formed was one about greening the leaseholds, 
because the District owns or leases a lot of buildings in the 
District, as well--not as many as the Feds, obviously.
    One of the things that is coming down the pike in our 
renegotiated storm water----
    Ms. Norton. So what are you doing with those buildings?
    I am sorry. What are you doing with those that you lease?
    Mr. Hawkins. We are seeking to renegotiate leases with 
green components within those.
    Ms. Norton. You mean, existing leases before they expire?
    Mr. Hawkins. Probably not. We are trying to do them in 
order. Let's get the new ones right first. There is a fair 
number up for renegotiation now.
    Ms. Norton. You are making more greening a significant 
factor in whether you release the building; is that what you 
are testifying?
    Mr. Hawkins. That's what we intend to do.
    Combined with, it is an interesting sideline on reducing 
energy use, we are decreasing the average square foot size of 
each office for D.C. personnel to try to decrease the footprint 
in total of any building that we would own or lease.
    But something that is coming down the pike that is very 
significant that connects to the Federal presence in the 
District is, we are redoing the storm water fees. And you have 
heard it mentioned. The new manner in which storm water fees 
will be applied is based on impervious cover. So currently, for 
example, if you own a parking lot you wouldn't pay a storm 
water fee, because it is based on how much water you use, even 
though we know a parking lot generates a lot of storm water.
    One of the very significant elements we would like to bring 
in is that the Federal Government will pay its share--not a 
tax, because we know we can't tax the Federal Government, but a 
fee-for-service. We have got to manage the storm water coming 
from these Federal facilities and build into it a market 
system.
    If you build better, lower your footprint, increase low-
impact development, you pay less. If you decide not to, 
separate from the regulations one way or----
    Ms. Norton. A very important development, Mr. Siglin, and 
WASA has testified about it. They come to see us about it.
    Would you like to comment on the impervious----
    Mr. Siglin. Actually, Congresswoman, what I would like to 
say is that my understanding--and I am not an expert on this, 
but my understanding is that H.R. 6, which is the energy bill 
that was recently passed by Congress, in fact, requires new 
Federal buildings to meet something called "predevelopment 
hydrology," which is a very high standard for storm water, an 
extraordinarily high standard for storm water, and great 
progress.
    And the reason that that becomes important is because LEED 
is a voluntary point system. You can get your points for a LEED 
rating without doing the thing you need to do for storm water. 
So when we began to talk to the District about this not too 
long ago, we were talking about LEED-plus, that is to say, you 
need to have--it is a good thing to have incentives and even 
mandates for LEED certification, but that may not solve your 
water problem.
    Ms. Norton. So wait a minute. In my opening statement I 
indicated that an important part of greening has to do with 
whether you lease or build close to waterways. Is there any 
third party who is capable of advising entities that build 
close to waterways so that we know whether somebody has, you 
know, a LEED certification----
    Mr. Siglin. Sure.
    Ms. Norton. --who should not have one in that sense? Is 
that a part, at all, of what LEED is?
    Mr. Siglin. It is a part. You can gain parts. And there are 
people here at this table who are much more expert at this than 
I. So I will try not to say anything wrong, and then you can 
ask them.
    But my understanding is that you can gain points toward 
LEED certification for doing good things for storm water. But 
you can also gain LEED certification without getting those 
points if you get points elsewhere.
    So if your objective is to actually do something for 
cleaning up the storm water down to a zero pollutant discharge, 
you may have to go beyond the LEED rating system to do 
something more.
    Ms. Norton. I think this is really important. I think it is 
really important. But I think we have to speak with the LEED 
people. We may need a different rating other than the LEED 
rating for people who build near waterways. This is important 
for the Nation, particularly because we are spending gazillions 
of dollars cleaning up, or trying to clean up; and others have 
just the problem we have in the District.
    Mr. Siglin. And this is actually why full implementation of 
the H.R. 6 provisions are going to be important. Because that 
is going to put the Federal Government to--sorry to use this, 
but--in the leading position for storm water management, as 
well.
    Ms. Norton. I knew of your platinum signature. What is it, 
above all others, that gives one a platinum?
    Mr. Siglin. Why don't I let one of my LEED-certified folks 
at the table answer how that works. I can answer it for our 
building specifically.
    Ms. Norton. Yeah. What is it about yours that is so much 
better than LEED buildings here we are very proud of?
    Mr. Siglin. From the very outset of the design process we 
asked ourselves the question, what can we do with every element 
of this building to make it ecologically friendly? And I don't 
have the statistics in hand, but for example, our building has 
more than 100 people that work there. If I remember correctly, 
we use fewer than 60 gallons of water a day for those 100 
people that work there.
    One of the reasons we do that is because we put in a system 
that doesn't use water in its plumbing in its toilet system. 
And that is a huge use of water in most commercial buildings. 
We don't do that at all.
    Every piece of wood was either sustainable or it was 
manufactured in some way. We sited the building so that we take 
full advantage of the sun. We have got systems that open the 
windows and close the windows automatically depending on what 
the ambient temperature is. We have got I think 36 geothermal 
wells that provide the heat.
    We really went out on a limb to try do the very best we 
could.
    Ms. Norton. This is an environmental organization that 
decides the way to lead the environment is to lead by example 
in the building you built?
    Mr. Siglin. Yeah.
    Ms. Norton. I just wanted to lay that on the record, 
because that is exactly what this Subcommittee hearing is 
about.
    Now I want to give everybody at the table an opportunity to 
be helpful to the Federal Government and to the District of 
Columbia. We had before us, at the hearing on the Capitol 
complex, District officials, Capitol Police and CAO, people who 
operate the Capitol. And we heard testimony about how people 
would get to the new so-called "CVC," the Capitol Visitor 
Center, whose opening we are anxiously awaiting; we expect it 
to be finished in November--if you are close to any wood, knock 
on it.
    When it opens and after it is dedicated we have, as with 
all progress, yet a new problem. Or maybe we don't. Mr. Hawkins 
may be familiar with that testimony.
    Here is the testimony: The tour buses will go to Union 
Station; 50 places, they say, have been set aside for tour 
buses at Union Station. I have asked them to submit for the 
record where they are going to be, because it was hard for us 
to understand, given the other buses that are already up there, 
but that is what they say. They say that the people will get 
off the tour buses at Union Station and then they will catch 
the so-called Circulator.
    This is a tourist city, and these people are trying to get 
to the Capitol and to the CVC. Then after they get off their 
tour bus, they have got to pay a dollar to get on the 
Circulator to get to the CVC, which left me saying, Are you out 
of your mind? This is tourist friendly and environmental 
friendly, a two-stop process that costs you more money?
    And then to add insult to injury, we were told that the 
closing of First Street would continue, even though they are 
coming on the Circulator--which, of course, people would have 
every opportunity to make certain did not, in fact, disturb the 
security of the Capitol and surrounding area. But, no, we were 
told they can't go through First Street; they have got to come 
all the way back down Louisiana and up Constitution Avenue.
    When you get through with the bottlenecks, with the 
multiple environmental and traffic and clean air issues posed, 
one has to wonder how anybody would come up with a notion like 
this. Just sitting here, scratching my head, I said, Don't the 
tour buses drop off people now at the Botanic Garden and then 
go someplace? Yeah.
    For people who need a walkup, don't we use nongas-powered 
golf carts? Yes.
    Why don't we use that? No answer.
    Let me just put everybody on notice, especially the 
District, we are not going to do that. There will be something 
in either the Legislative, probably because there has been a 
hearing of--since then there has been a hearing of the 
Legislative Appropriations Subcommittee, and they went up the 
wall to hear about this two-stop process.
    And they are up the wall because they think of their 
constituents having to pay an extra dollar, having the two-stop 
process. I am up the wall because I represent a tourist-
friendly, environmental-friendly city, particularly given the 
testimony we see today, and I see huge harm to both.
    One thing we can say for sure, these tour buses--and 
because the tour buses just want to get there. So they are 
trying to really push back. They say, We have got just the 
answer for you, Congresswoman: Let us come up Independence 
Avenue and Constitution Avenue and drop the people right off at 
the CVC in our neighborhoods, clogging up two of the streets 
that are most congested.
    No, they are not going to do that either. We are not going 
to have tour buses all around our neighborhoods.
    Obviously, the question has to do with the consistent and 
continuous failure to find a way for tour buses. But they find 
someplace to go now as they are dropped off.
    I am going to have to ask Mr. Hawkins, since we are all in 
the process of thinking this through, following that testimony, 
which was very recent, I am putting this on the table. I invite 
you to put on the table any suggestions you may have. Wouldn't 
it make better sense for them to continue to drop them off at 
the Botanic Gardens, go about their business; and then the 
Capitol, that I guess provides the golf carts, deals with those 
who don't believe, even given the obesity rate in this country, 
that they need to walk up the hill?
    The fact is that people stand under that awning; I never 
heard people complain about it. I do my race walk back there. 
They look happy waiting.
    So I am just looking--since I have asked them to come see 
me, once I heard that testimony, now they are going before yet 
another committee who complained. And one complained that she 
didn't want her little 8-year-olds walking that far. Okay, 
maybe she can put that person in the golf cart.
    But, frankly, Mr. Hawkins, given how sensitive the District 
has been for years now to the environment, I was just shocked 
at the testimony. Now, it may have been the Capitol Police's 
fault, although I tell you, the Circulator, it isn't their 
fault.
    I asked them all to work together. At the time I asked them 
to work together, they said First Street would be open. I will 
have to deal with that. But the whole notion of the two-step 
process will enrage people. And so I need to know from you--
because you didn't have to do with this perhaps, or maybe you 
did--whether you think the Botanic Garden solution is a better 
solution, whether you can think of a better solution, and any 
insight or suggestions you can offer as we prepare to open the 
CVC, the new Visitor Center.
    Mr. Hawkins. This is not testimony or an issue that I am 
personally familiar with other than what I have seen in the 
press. I will commit to going back to my office, looking into 
it, and getting back to you.
    Ms. Norton. Because I thought you had a team approach. You 
mean to say, they didn't consult you about bringing a whole 
bunch of new buses to Union Station?
    They couldn't even answer my questions about where they are 
going to go. Well, you know, they will go around Columbus 
Circle and they will somehow get up there. It was an atrocity. 
It was somebody deciding that the best way is to somehow get 
these people close to a Circulator.
    I don't mind that, since we have people on the Circulator, 
we bring them here; fine, put them on the Circulator wherever 
they are. I know this is a traffic management problem.
    But you said, everybody kind of works together. And this 
was a jerry-built matter that invites Congress--because 20 
million people come here; most of them are their folks--to do 
something about it. I think you can see the difficulty----
    Mr. Hawkins. Yes.
    Ms. Norton. --of people who simply want to get there.
    Mr. Hawkins. You certainly have raised legitimate points. 
It was not an issue that was brought to my agency that I know 
of. But I will find out and we will get back to you.
    Ms. Norton. I would like you to speak with the traffic 
people.
    We had Mr. Moneme, and he has been very good in working 
with us. We had the Capitol Police. They all are supposed to be 
coming in to see me.
    But I would like the District to get together before you--
you have even done a very good job in trying to deal with, 
really, traffic situations not in your control, and most of 
these people are going someplace else. And the District does 
very well. You know, we have done--with the renovated Frederick 
Douglas Bridge, we have done a lot of stuff.
    But this looks like a real throwback that didn't have all 
hands on deck trying to think it through. There is far from a 
perfect solution to this.
    Let me ask you this, Mr. Hawkins. Are you or anybody else, 
I would think you would be a part of this, involved in where 
these buses would go, no matter what we are talking about? We 
have hundreds of tour buses that come. Many of them involve 
children; half the tourists who come are school children. What 
do we do with tour buses?
    What is our--Mr. Siglin testified that highways is--because 
he knows the highway bill is coming up. We are glad to have 
them here. It is very hard in this city, which doesn't have a 
lot of land, to just say, tour buses go here, go there--to find 
a place for them to go.
    Now that we are going to have thousands more people coming, 
just because there is a new convention center--sorry, Capitol 
Visitor Center--what are we going to do with those tour buses?
    Mr. Hawkins. I will talk to Director Moneme this afternoon 
to determine what DDOT's role has been and what their----
    Ms. Norton. Quite apart from the CVC.
    Mr. Hawkins. Yeah. Our agency is connected to tour buses on 
engine idling.
    Ms. Norton. Say it again.
    Mr. Hawkins. On engine idling. There are regulations in the 
District that obligate buses or any vehicle not to sit and idle 
and be spewing air emissions.
    Ms. Norton. I understand this is not your jurisdiction, but 
I admire your team approach, and it is going to take a team 
approach to solve.
    Mr. Siglin, I don't know, do you have something to say on 
that?
    Mr. Siglin. Congresswoman, I ride a commuter bus into the 
District now. I moved from the District a couple years ago, 
after having lived here a long time.
    Ms. Norton. Shame on you, Mr. Siglin. Go ahead.
    Mr. Siglin. But I do know that one of the things that is 
really important is to get the engine turned off on the bus as 
quickly as possible. And one of the challenges that Mr. 
Tangherlini taught me when he was the head of the DOT here was, 
you have got to get the buses to a place where they can sit and 
have their engines turned off; and I think that is our sort of 
ongoing challenge.
    And I certainly don't want to put myself out on a limb 
about this CVC problem, but I would guess that what they are 
trying to achieve is to get the buses over to Union Station and 
get their engines turned off as quickly as possible.
    Ms. Norton. Well, Mr. Hawkins, the CVC, he wants to make 
sure they are not running, that the engines aren't running. And 
sometimes we see them in places and there is nothing we can do 
about it because we don't want to chase all the tourists out of 
town. We see them in places where they are cut off, and I am 
sure that is an enforcement matter.
    Mr. Hawkins, you testified that much of your work has to do 
with enforcement. But this is a chronic problem--I noticed it 
only when I came to Congress--and it has to do with no land 
available here.
    I don't know if the land around RFK can be used. That is 
Federal land. And I certainly would be willing to work with the 
District to finally settle this question as we now build on 
every blade of grass and nearly have no place in the city for 
them to find a place.
    I anticipate a crisis is what I am saying, particularly 
given the plan they have come up with, that you go here and 
then you pay us a dollar and maybe we will get you to the 
Capitol of the United States. That is never going into effect. 
And so I would like to find a solution, a win-win solution that 
is agreeable to the District and that the Congress will accept, 
without trying to butt into our affairs.
    One more question, and that is--this should be of some 
interest particularly to Mr. Siglin. I struggled, and finally 
after 2 years got a bill through the Congress that gives the 
District, which doesn't have much land, a great deal of land 
that it now owns, that the Federal Government owns, land which 
we call Reservation 13 near RFK and the land that is called 
Poplar Point. There was always some building on Reservation 13 
because we had our own hospital, prison and the rest there, 
although I am sure that there will--in fact, there are plans 
for truly new residential and commercial, perhaps, construction 
there, which means new attention to the environment because 
that land is near the Anacostia.
    The most precious land is the Poplar Point land. That land 
is on the banks of the Anacostia. Neither the Framers nor 
anybody else ever envisioned that there would be development on 
Poplar Point. Of course, that is 200 years back.
    It is pristine land. Our bill says 70 percent of it must 
remain parkland. But it doesn't bar building on that land. The 
Park Service will have a small portion there. The District has 
already announced some of what will be built there.
    I have to ask you, therefore, Mr. Hawkins, have you begun 
to work to assure that the pristine nature of Poplar Point will 
not be disturbed by the fairly monumental plan that has already 
been announced for building on Poplar Point?
    Mr. Hawkins. In fact, a whole crew of our team did a tour 
on Poplar Point just 2 days ago. We have been very engaged. We 
are grateful for the "land swap," as we call it, where the 
District has gained--or will gain title to a significant piece 
of land. Poplar Point is probably the most significant.
    There are stringent environmental regulations that will 
apply to this development since it is along the Anacostia. 
There is the 70-acre natural set-aside that you built into the 
legislation from the beginning that must be accommodated.
    We sat, the Department of Environment sat on the review 
committee of the development proposals that came in, and at 
least in our judgment, of the proposals, the one that was 
selected was by far the most environmentally beneficial to the 
project. It is a large development project, however.
    We will be there every step of the way to make sure every 
one of our regulations is applied, that the 70-acre set-aside 
is meaningful on an ecological basis, and that the site is 
developed in an environmental way to the best extent it can be. 
It ought to be truly, as you suggested, envisioning what can be 
done, rather than what has been done in the past.
    Ms. Norton. This is going to be a model for building on a 
river. It is your land now, and I am trying to make sure that 
the Park Service understands it is your land now.
    Mr. Siglin, do you believe that the District of Columbia 
can build on this land without doing damage to the Anacostia?
    Mr. Siglin. Poplar Point itself is pretty highly polluted 
because of the former use. And so one of the things that is 
important at Poplar Point is to get the current level of 
pollution down.
    Ms. Norton. You mean on the land itself?
    Mr. Siglin. Yes. And oftentimes the way these things work 
is that that land sat there polluted for decades when it was in 
the hands of the Park Service, and the Park Service never got 
the money together to clean it up. Actually, it belonged to the 
Architect of the Capitol before that, and that is where the 
pollution comes from, when it belonged to the Architect.
    But it has sat there, polluted, for a very long time. And 
the pollution runs through the groundwater into the river, 24/
7, so we have been having a load of pollution go off that site 
for a long time.
    Because it is often easier to get the money together to do 
cleanups if the private sector gets involved, sometimes the way 
this stuff works is that you get a development project that 
promises to clean up the land in exchange for being able to 
develop there. And that seems to me to be an inevitability 
here, in this case, that there is probably going to be some 
kind of development there. And I guess that all I would hope 
for is that Mr. Hawkins and his folks are able to achieve what 
he says they can, which is to do it to the very highest 
environmental standards.
    Ms. Norton. Well, this project is going to be watched 
closely--it will be watched by me because of my concerns. But 
frankly, I think everybody is going to be looking. A lot of 
building is going on on rivers. And this is perhaps the newest, 
when you consider how extensive the building along the river 
will be, or around the river, I should say.
    Now, at the time that I worked on the Southeast Federal 
Center, I was able to get the Federal Government to do the 
cleaning because we were talking about Federal use of the land. 
When I tried to do that--we are the polluters of this land. It 
was our land, as Mr. Siglin said. The Capitol itself, the Park 
Service, no matter how you look at it, the guilty party here 
was the Federal Government. But what the District got--and Mr. 
Hawkins can call it a "swap" all he wants to--what the District 
got was, because the swap is very jerry-built, was essentially 
a virtual gift of very valuable private land in return for 
little snippets here and there. And I was not able, I was not 
even a little bit able to get Uncle Sam--I was even in the 
minority at the time, mind you--to get Uncle Sam to consider 
cleaning up his own waste the way he did with the Southeast 
Federal Center.
    And as you know, a lot of my bill really means that the 
Southeast Federal Center is going to be used for essentially 
private purposes. We were able to put in the bill, Mr. Hawkins, 
a notion that essentially says the District may allow the 
developer--the District does have this responsibility, but may 
indeed allow the developer to contribute to this cleanup, 
because this cleanup and meeting the Federal environmental 
standards, which are still there, is going to be important. And 
I very much regret and apologize that the Federal Government 
didn't clean up what it messed up, but it thought it was 
offering a gift, and what more can you ask for was its 
attitude.
    I am certainly convinced that your agency is in the 
frontiers of trying to work on these agencies. I think much 
more than the ballpark, you will have lots of folks looking at 
the District. And it may cost more. And you may decide not to 
build so close to the water; I certainly hope so.
    But--it is a big challenge, but given the work that you 
have done, that Arlington has done, I am proud of the frontier 
approach you have, not simply dealing with things as they 
already were. I just can't say enough, as we deal with the 
Anacostia initiatives; Mr. Siglin was very helpful to me in all 
my work on that bill, which we finally got out of Congress last 
year.
    Let me ask this final question. Have any of you been 
approached by the Corps of Engineers on--my Anacostia River 
bill, which was passed through this Committee as a part of the 
Water Resources Development Act, I guess last year, gives the 
Corps 1 year to work with all of the appropriate, surrounding 
jurisdictions to come up with a 10-year plan for restoring the 
Anacostia, which is the predicate for any substantial money 
that I and my colleagues here in the Congress can get for 
further Anacostia cleanup beyond what we get on a yearly basis.
    Have you been approached? Are you in the throes of doing 
the plan? What can you tell me about the plan that the Congress 
says must be prepared within a year?
    Mr. Siglin. Congresswoman, I haven't talked to the Corps 
since the last time I came to see you about that. I don't know 
where they are in their planning now. But I would certainly be 
happy to find out and put it in the record, if that would be 
helpful to you.
    Ms. Norton. It would be even more likely that they would 
have approached the District----
    Mr. Hawkins.
    Mr. Hawkins. They have approached----
    Ms. Norton. --and, for that matter, Arlington.
    Ms. Kelsch. No.
    Mr. Hawkins. They have approached the District.
    Ms. Norton. They have?
    Mr. Hawkins. They have. We have talked to the Army Corps 
about how to approach building this plan.
    I don't know if Dana is still here and may have an update 
from the Anacostia Restoration Partnership. Dana Minerva may be 
able to update you on the status.
    Ms. Norton. I can talk with you after. I just invite you to 
help me monitor this 1-year deadline so that we can make sure 
that the Corps is--we have had them in our office; and they 
have already done some work, Mr. Siglin, as you may be aware, 
on it.
    But that work bothered me, that some of the first work they 
have done, it seems to me, should have been completed by now. 
So the more local jurisdictions not only cooperate with them 
but press them, the better off we are.
    Now, finally, let me just put in the record the whole point 
is that the Federal Government is not going to alone clean up 
the Anacostia River. This is going to be a plan that involves 
all of those on the river. And all those on the river are 
responsible for what has happened to the river.
    I happen to think, I believe I can show, that the Federal 
Government historically has been the largest, and continues in 
many ways, not entirely, to be a heavy contributor to the 
pollution of the Anacostia. And so the real challenge is not 
just getting the plan, but getting the local jurisdictions to 
agree that they will do their share if the Federal Government 
agrees to do its share.
    The testimony of all of you has been very important, and it 
has been important for us to see you all at the table to hear 
whether Mr. Shovan agrees with our two colleagues from 
government; to hear Mr. Siglin, who is trying to do it with the 
river, incorporate his work into green roofs; as Mr. Epstein 
and D.C. Greenroofs works diligently to see happens in the 
private and public sector.
    And as we try to figure what is the next thing for the real 
leader in the environment to do, the Federal Government, your 
testimony will be very, very important to any new legislation, 
new requirements we ourselves as a Subcommittee come forward 
with at this time.
    Thank you very much for your testimony. The hearing is 
adjourned.
    [Whereupon, at 1:04 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1988.005
    
    [GRAPHIC] [TIFF OMITTED] T1988.006
    
    [GRAPHIC] [TIFF OMITTED] T1988.007
    
    [GRAPHIC] [TIFF OMITTED] T1988.008
    
    [GRAPHIC] [TIFF OMITTED] T1988.009
    
    [GRAPHIC] [TIFF OMITTED] T1988.010
    
    [GRAPHIC] [TIFF OMITTED] T1988.011
    
    [GRAPHIC] [TIFF OMITTED] T1988.012
    
    [GRAPHIC] [TIFF OMITTED] T1988.013
    
    [GRAPHIC] [TIFF OMITTED] T1988.014
    
    [GRAPHIC] [TIFF OMITTED] T1988.015
    
    [GRAPHIC] [TIFF OMITTED] T1988.016
    
    [GRAPHIC] [TIFF OMITTED] T1988.017
    
    [GRAPHIC] [TIFF OMITTED] T1988.018
    
    [GRAPHIC] [TIFF OMITTED] T1988.019
    
    [GRAPHIC] [TIFF OMITTED] T1988.020
    
    [GRAPHIC] [TIFF OMITTED] T1988.021
    
    [GRAPHIC] [TIFF OMITTED] T1988.022
    
    [GRAPHIC] [TIFF OMITTED] T1988.023
    
    [GRAPHIC] [TIFF OMITTED] T1988.024
    
    [GRAPHIC] [TIFF OMITTED] T1988.025
    
    [GRAPHIC] [TIFF OMITTED] T1988.026
    
    [GRAPHIC] [TIFF OMITTED] T1988.027
    
    [GRAPHIC] [TIFF OMITTED] T1988.028
    
    [GRAPHIC] [TIFF OMITTED] T1988.029
    
    [GRAPHIC] [TIFF OMITTED] T1988.030
    
    [GRAPHIC] [TIFF OMITTED] T1988.031
    
    [GRAPHIC] [TIFF OMITTED] T1988.032
    
    [GRAPHIC] [TIFF OMITTED] T1988.033
    
    [GRAPHIC] [TIFF OMITTED] T1988.034
    
    [GRAPHIC] [TIFF OMITTED] T1988.035
    
    [GRAPHIC] [TIFF OMITTED] T1988.036
    
    [GRAPHIC] [TIFF OMITTED] T1988.037
    
    [GRAPHIC] [TIFF OMITTED] T1988.038
    
    [GRAPHIC] [TIFF OMITTED] T1988.039
    
    [GRAPHIC] [TIFF OMITTED] T1988.040
    
    [GRAPHIC] [TIFF OMITTED] T1988.041
    
    [GRAPHIC] [TIFF OMITTED] T1988.042
    
    [GRAPHIC] [TIFF OMITTED] T1988.043
    
    [GRAPHIC] [TIFF OMITTED] T1988.044
    
    [GRAPHIC] [TIFF OMITTED] T1988.045
    
    [GRAPHIC] [TIFF OMITTED] T1988.046
    
    [GRAPHIC] [TIFF OMITTED] T1988.047
    
    [GRAPHIC] [TIFF OMITTED] T1988.048
    
    [GRAPHIC] [TIFF OMITTED] T1988.049
    
    [GRAPHIC] [TIFF OMITTED] T1988.050
    
    [GRAPHIC] [TIFF OMITTED] T1988.051
    
    [GRAPHIC] [TIFF OMITTED] T1988.052
    
    [GRAPHIC] [TIFF OMITTED] T1988.053
    
    [GRAPHIC] [TIFF OMITTED] T1988.054
    
    [GRAPHIC] [TIFF OMITTED] T1988.055
    
                                    

</pre></body></html>
